<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]




 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--The following testimonies were received by 
the subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies for inclusion in the record. 
The submitted materials relate to the fiscal year 2015 budget 
request for programs within the subcommittee's jurisdiction.]
              Prepared Statement of AFSCME Ohio Council 8
    Chairwoman Murray, Ranking Member Collins, and other Senators 
serving on the T-HUD Subcommittee, thank you for this opportunity to 
submit written outside witness testimony in support of increased 
Federal funding for America's public housing.
                           witness background
    My name is Eric Clemons. Since 2003, I have served as Secretary-
Treasurer of AFSCME Ohio Council 8, which represents 41,000 AFSCME 
members throughout Ohio working in numerous diverse occupations for 
varied employers. For more than 15 years, I also have had the privilege 
to serve as President of AFSCME Local 1027, which represents AFSCME 
members employed at the Cincinnati Metropolitan Housing Authority.
                   witness' organizational background
    AFSCME Council 8 is the leading union for public and non-profit 
workers in Ohio and we are comprised of nearly 300 local unions 
representing city, county, hospital, and university employees along 
with boards of education, non-profit workers, and other public service 
employees. AFSCME Council 8 includes multiple AFSCME Locals 
representing employees of Housing Authorities in Ohio, including Local 
1330 (Butler County Metro Housing Authority), Local 2279 (Trumbull 
Metro Housing Authority), Local 2517 and Local 3707 (Akron Metropolitan 
Housing Authority), Local 2916 (Lucas Metro Housing Authority). Council 
8 and these Locals help their members obtain good wages and healthcare 
benefits, retirement security, safe workplaces, and respect and dignity 
on the job. Our individual local unions work cooperatively with Housing 
Authorities to strengthen labor-management relations. Council 8 also 
works alongside other trade union organizations, such as the Ohio AFL-
CIO, Coalition of Labor Union Women; Coalition of Black Trade 
Unionists, Alliance of Retired Americans, and local labor central 
bodies in communities across Ohio. Together, we seek to strengthen the 
voices and lives of Ohio's working families.
    AFSCME Local 1027 represents roughly 160 employees working at the 
Cincinnati Metropolitan Housing Authority (CHA) on varied assignments 
such as clerical work; maintenance; building and grounds specialty 
work; modernization; supervising construction and modernization; 
administering housing choice vouchers; recertifying residents' income 
and eligibility requirements; handling other administrative aspects of 
public housing, and both project based and tenant- based Section 8; 
inspecting housing units within and outside CHA's portfolio; and 
countless other diverse tasks. To summarize, our AFSCME union members 
help ensure Housing Authority operations run smoothly, housing units 
are well maintained and preserved, and residents live in safe, decent, 
durable, and affordable housing.
              request for fiscal year 2015 appropriations
    Our AFSCME members and the residents we serve understand the value 
of Federal funding for America's public housing--especially two key 
programs: the Public Housing Operating Fund and the Public Housing 
Capital Fund. Without Federal funding for these programs, the 2.6 
million Americans living in public housing's 1.1 million units would 
have no place to live.
Public Housing Operating Fund--At Least $5.26 Billion
    I respectfully request an appropriation of at least $5.26 billion 
for the Public Housing Operating Fund, which would reflect 100 percent 
of public housing operating costs. Anything less than 100 percent full 
funding weakens Housing Authorities' ability to serve existing 
residents, causes budget shortfalls and problems, and expands waiting 
lists. Please note, although President Obama's budget request of $4.6 
billion would increase current funding, it would represent a mere 87 
percent proration of needed funding. In other words, it's significantly 
less than required to fully fund operating needs.
Public Housing Capital Fund--At Least $5 Billion
    I respectfully request an appropriation of at least $5 billion for 
the Public Housing Capital Fund. Please note, although President 
Obama's budget request of $1.925 billion would slightly increase 
current funding, the larger amount is needed to meet current accrual 
needs and reduce the huge capital needs backlog.
    Please note, given that we work closely with housing authorities, 
our appropriations requests are very similar to those of the three 
largest public housing trade associations, each of which requested at 
least these funding levels. These three groups are: Council of Large 
Public Housing Authorities (CLPHA), Public Housing Authority Directors 
Association (PHADA); and National Housing and Redevelopment Officials 
(NAHRO).
    Our members enjoy our work assignments and the satisfaction of 
knowing we contribute to safe, decent, affordable housing and livable 
communities for families in our neighborhoods. Unfortunately, many 
eligible individuals and families do not receive the housing they need, 
and waiting lists for public housing are too long. Why are families 
eligible for this housing assistance not receiving it? Quite simply, 
Federal funding is inadequate. Worse, public housing has a 
modernization backlog of approximately $26 billion, which means the 
housing stock is not being modernized as needed. HUD's 2011 report 
entitled, ``Capital Needs in the Public Housing Program'' determined 
that America's ``1.1 million public housing units are facing an 
estimated $25.6 billion in large-scale repairs. Unlike routine 
maintenance, capital needs are extensive improvements required to make 
the housing decent and economically sustainable, such as replacing 
roofs or updating plumbing and electrical systems to increase energy 
efficiency.'' The enormous size of this backlog speaks for itself and 
reflects the decade's long trend of cutting public housing 
appropriations.
Problems Due to Inadequate Funding
    In prior years, AFSCME Local 1027 had as many as 375 AFSCME 
members. Today, Local 1027's membership has declined to roughly 160 
members. As many of our positions went unfilled, our members and public 
housing residents were told to try to do more with less. While we 
certainly have tried, the truth is sometimes less simply means less.
    In a recent example, starting in late 2013 CHA implemented 
furloughs to our union members, non-union workers, and managers due to 
the Federal budget sequester. Our union met with CHA's executive 
director to discuss options. Employees were told that due to Federal 
funding uncertainties, they would lose 2 days per month for the next 
year. Subsequently, these furloughs were implemented and our members 
and others suffered pay cuts, which resulted in reduced housing 
services. By February, 2014, the remaining scheduled furloughs were 
halted. However, workers were not compensated for their lost wages. As 
part of this budget process, CHA offered early retirement buy-outs for 
some individuals, which resulted in the loss of about 50 workers. This 
contributed to a large and troubling loss of institutional knowledge 
concerning CHA's systems, personnel, standard operating procedures and 
practices. We are still trying to adjust to the resulting problems. 
Thus, we are deeply concerned about potential inadequate Federal 
funding in fiscal year 2015 and future years.
    Of course, budget shortfalls and resulting problems at CHA and 
Local 1027 above cause difficulties throughout Ohio. In early 2013, 
Federal funding shortfalls caused problems for residents and employees 
in other Ohio authorities. For example, the Summit County Housing 
Authority held several positions open, including six maintenance staff 
who retired. These staff had been responsible for maintaining 
properties and without them, remaining staff struggled to get work done 
and comply with Federal regulations. The authority considered rent 
increases for residents. In Hamilton County, it appeared they were out 
of compliance with Federal regulations requiring a certain ratio of 
maintenance staff to residents. When we met with managers, both 
authorities claimed funding might be cut 30%-40 percent and suggested 
``creative budgeting'' was needed. This is the wrong way to treat 
public housing residents, employees, the 1.1 million public housing 
units.
                               conclusion
    Our union members strongly support increased Federal funding for 
America's public housing. We support efforts to operate and modernize 
this housing stock to ensure smooth daily operations for today's 
residents and ensure it's preserved, modernized, and strengthened for 
future generations. While we know what it's like to try to do more with 
less, we know better than most that over time, less and less funding 
merely reduces the quality and quantity of America's public housing. 
Maintaining the volume and value of public housing--let alone, and 
improving its condition--requires adequate funding.
    Each and every day, AFSCME's union members in Ohio and across 
America work with public housing residents and public officials in 
local, State and Federal Government positions to secure economic 
stability and growth for working families and communities. Access to 
safe, decent, affordable, durable housing is a vital part of stable and 
livable communities. I urge Senators on the T-HUD Appropriations 
Subcommittee to support appropriations needed to fully fund the Public 
Housing Operating Fund and the Public Housing Capital Fund.

    [This statement was submitted by Eric Clemons, Secretary-Treasurer 
of AFSCME Ohio Council 8, and President of AFSCME Local 1027 
(representing employees at Cincinnati Metropolitan Housing Authority).]
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    On behalf of the Nation's 37 Tribal Colleges and Universities 
(TCUs), which collectively are the American Indian Higher Education 
Consortium (AIHEC), thank you for the opportunity to express our views 
and recommendations regarding the Department of Housing and Urban 
Development Tribal Colleges and Universities' Program for fiscal year 
2015.
                          summary of requests
    Department of Housing and Urban Development (HUD).--Begun in fiscal 
year 2001, a TCU initiative had been administered by the HUD-Office of 
University Partnerships as part of the University Community Fund. These 
greatly needed competitive grants enabled TCUs to build, expand, 
renovate, and equip their facilities that are available to, and used 
by, their respective reservation communities. We strongly urge the 
Subcommittee to support the goal of Executive Order 13592 to strengthen 
TCUs by restoring funding of the competitive HUD-TCU Grant Program, at 
$5,435,000. Additionally, we request that language be included to 
permit that a small portion of the funds appropriated may be used to 
provide technical assistance to institutions eligible to participate in 
this competitive grants program.
        tcu shoestring budgets: ``doing so much with so little''
    Tribal Colleges and Universities are accredited by independent, 
regional accreditation agencies and like all U.S. institutions of 
higher education, must periodically undergo stringent performance 
reviews to retain their accreditation status. Currently, 37 TCUs 
operate more than 75 campuses and sites in 16 States, within whose 
geographic boundaries 80 percent of all American Indian reservations 
and Federal Indian trust land lie. They serve students from well over 
250 federally recognized tribes, 80 percent of whom receive Federal 
financial aid. In total, the TCUs annually serve about 88,000 AIs/ANs 
through a wide variety of academic and community-based programs. TCUs 
fulfill additional roles within their respective reservation 
communities functioning as community centers, libraries, tribal 
archives, career and business centers, economic development centers, 
public meeting places, and child and elder care centers. Each TCU is 
committed to improving the lives of its students through higher 
education and to moving American Indians and Alaska Natives (AI/AN) 
toward self-sufficiency.
    TCUs have advanced AI/AN higher education significantly since they 
were first begun more than four decades ago, but many challenges 
remain. TCUs are perennially underfunded, and remain among the most 
poorly funded institutions of higher education in the country.
    The tribal governments that have chartered TCUs are not among the 
handful of very wealthy gaming tribes located near major urban areas 
and regularly highlighted in the mainstream media. Rather, they are 
some of the poorest governments in the Nation. Some of the poorest 
counties in America are home to Tribal Colleges and Universities. In 
fact, there are TCUs located in seven of the Nation's 10 poorest 
counties. The U.S. Census Bureau, American Community Survey specifies 
the annual per capita income of the U.S. population as $27,100. 
However, the annual per capita income of AI/ANs is just $13,300, less 
than half that of the general population.
    The Federal Government, despite its direct trust responsibility and 
treaty obligations, has never fully funded the TCUs' institutional 
operating budgets, authorized under the Tribally Controlled Colleges 
and Universities Assistance Act of 1978. Currently, the Administration 
requests and Congress appropriates approximately $200 million annually, 
towards the institutional operations of Howard University (exclusive of 
its medical school), the only other MSI that receives institutional 
operations funding from the Federal Government. Howard University's 
current Federal operating support exceeds $22,000/student. In contrast, 
most TCUs are receiving $5,850/Indian Student (ISC) under the Tribal 
College Act, only about 73 percent of the authorized level. TCUs have 
proven that they need and have earned an investment equal to--at the 
very least--the congressionally authorized level of $8,000/Indian 
student. It is important to note that although about 20 percent of the 
TCUs collective enrollments are non-Indian students living in the local 
community, TCUs only receive Federal funding for operations based on 
full-time Indian students, which are defined as members of a federally 
recognized tribe or a biological child of a tribal member. We are by no 
means suggesting that our sister MSI, Howard University does not need 
or deserve the Federal funding it receives, only that the TCUs also 
need and deserve adequate institutional operations funding.
    While TCUs do seek funding from their respective State legislatures 
for their students that are non-Indian State-residents (sometimes 
referred to as ``non-beneficiary'' students), successes have been at 
best inconsistent. TCUs are accredited by the same regional agencies 
that accredit mainstream institutions, yet they have to continually 
advocate for basic operating support for their non-Indian State 
students within their respective State legislatures. If these non-
beneficiary students attended any other public institution in the 
State, the State would provide that institution with ongoing funding 
toward its day-to-day operations. Given their locations, often hundreds 
of miles from another postsecondary institution, TCUs remain open to 
all students, Indian and non-Indian, believing that education in 
general, and postsecondary education in particular, is the silver 
bullet to a better economic future for their regions.
    TCUs effectively blend traditional teachings with conventional 
postsecondary curricula. They have developed innovative ways to address 
the needs of tribal populations and are overcoming long-standing 
barriers to success in higher education for American Indians. Since the 
first TCU was established on the Navajo Nation in 1968, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who might otherwise never 
have known postsecondary education success.
    Inadequate funding has left many TCUs with no choice but to 
continue to operate under severely distressed conditions. The need for 
HUD-TCUP funding remains urgent for construction, renovation, 
improvement, and maintenance of key TCU facilities, such as basic and 
advanced science laboratories, computer labs, and increasingly 
important student housing, day care centers, and community services 
facilities. Although the situation has greatly improved at many TCUs in 
the past several years, some TCUs still operate--at least partially--in 
donated and temporary buildings. Few have dormitories and even fewer 
have student health centers. At Sitting Bull College in Fort Yates, ND 
competitively awarded HUD grant funds were leveraged to expand the 
college's usable space from 12,000 square feet (sf) to 100,000 sf over 
10 years. Additionally, HUD grant dollars were used to address three 
leaking roofs that created a mold problem in the area referred to at 
the college as the ``Hall of Buckets.'' HUD grant funds were also used 
to complete a renovation on its learning center, correcting major 
deficiencies, including recurring sewer and water problems, handicap 
accessibility issues, lack of effective safety/security measures 
(surveillance and alarm systems), and outdated washroom facilities.
                             justifications
    Department of Housing and Urban Development.--Executive Order 13592 
addressing American Indian education and strengthening of Tribal 
Colleges and Universities holds Federal agencies accountable to develop 
plans for integrating TCUs into their various programs. TCUs work with 
tribes and tribal communities to address all aspects of reservation 
life, including the continuum of education, housing, economic 
development, health promotion, law enforcement training, and crime 
prevention. Likewise, Federal agencies need to work with TCUs. To 
achieve results, Congress needs to hold the Administration accountable 
for the strengthening of the TCUs, including their physical plants and 
ensuring that they are routinely included as full partners in all 
existing and potential Federal higher education programs. The HUD-TCU 
competitive grants program, administered by the Office of University 
Partnerships, is an excellent place to start. This competitive grants 
program has enabled TCUs to expand their roles and efficacy in 
addressing development and revitalization needs within their respective 
communities. No academic or student support projects have been funded 
through this program; rather, funding was available only for community-
based outreach and service programs and community facilities at TCUs. 
Through this program, some TCUs have been able to build or enhance 
child care centers, including Head Start facilities and social services 
offices; help revitalize tribal housing; establish and expand small 
business development; and enhance vitally-needed community library 
services. Unfortunately, not all of the TCUs were able to benefit from 
this small but very important program. The program staff at the 
Department has no budget to provide technical assistance with regard to 
this program. If a small portion of the appropriated funds were to be 
available for program staff to conduct workshops and site visits, more 
of the TCUs and their respective communities could benefit from this 
vital opportunity. We strongly urge the Subcommittee to support the 
HUD-TCU competitive grants program at $5,435,000, and to include 
language that will allow a small portion of these funds to be used to 
provide technical assistance to TCUs, to help ensure that much-needed 
community services and programs are expanded and continued in the 
communities served by the Nation's TCUs.
                               conclusion
    We respectfully request that beginning in fiscal year 2015, 
Congress illustrate its support for the goals of the new executive 
order aimed at strengthening TCUs by restoring the HUD-TCU competitive 
grants program and provide for technical assistance to help these 
dynamic institutions improve and expand their facilities to better 
serve their students and communities. Thank you for your continued 
support of the Nation's TCUs and for your consideration of our fiscal 
year 2015 HUD appropriations requests.
                                 ______
                                 
  Prepared Statement of the American Public Transportation Association
    Chairman Murray and members of the subcommittee, on behalf of the 
American Public Transportation Association (APTA), thank you for this 
opportunity to submit testimony on the fiscal year 2015 Transportation, 
Housing and Urban Development Appropriations bill, as it relates to 
Federal investment in public transportation and high-speed and 
intercity passenger rail.
    The 2-year surface transportation authorization bill--Moving Ahead 
for Progress in the 21st Century (MAP-21) Act--was a welcome respite 
from 2-plus years of short-term extensions, but it expires at the end 
of the current fiscal year. APTA has proposed a new, 6-year 
authorization bill, which better addresses the true investment needs of 
the industry. APTA's recommendations on a new surface transportation 
authorizing law call for substantial increases in Federal spending on 
public transportation under a multi-year bill. APTA also supports 
increased investment in high-speed and intercity passenger rail. 
Committee leaders in both chambers have expressed their intention to 
pass a new authorization bill prior to the expiration of MAP-21, and we 
are ready to work with Congress to help meet that deadline.
                               about apta
    APTA is a nonprofit international association of nearly 1,500 
public and private member organizations, including transit systems and 
high-speed, intercity and commuter rail operators; planning, design, 
construction, and finance firms; product and service providers; 
academic institutions; transit associations and State departments of 
transportation.
             overview of fiscal year 2015 funding requests
    Fiscal Year 2015 presents unique challenges to our industry, as 
uncertainty clouds the future of the Highway Trust Fund (HTF) and its 
Mass Transit Account (MTA)--the primary funding source for Federal 
Transit Administration's (FTA) programs and expenses. According to the 
Congressional Budget Office (CBO), the MTA will be able to meet all 
obligations during fiscal year 2014, but will be unable to meet 
obligations at some point in fiscal year 2015. CBO estimates that the 
HTF Highway Account will likely have difficulty meeting obligations 
sometime during the latter half of fiscal year 2014. U.S. DOT's own HTF 
revenue projections estimate that, before the end of the current fiscal 
year, the balances of the mass transit account and the highway account 
will each drop to levels that would require the Department to delay or 
reduce reimbursements to transit agencies and State highway departments 
until sufficient revenues are credited to the HTF. APTA is greatly 
concerned with how Congress will respond to this shortfall in revenues 
to the HTF/MTA while also maintaining the needed investments in fiscal 
year 2015.
    Of the $10.695 billion authorized for FTA in fiscal year 2014 under 
the expiring MAP-21, $8.595 billion is provided from the MTA of the 
Highway Trust Fund. Failing to fix the revenue problem could mean 
drastic cuts to construction, maintenance and operations, which would 
result in lost jobs and wages, limit critical safety improvements, and 
add to the existing maintenance backlog. The remaining $2.3 billion, 
used to fund New Starts, Research Programs, TCRP, Technical Assistance, 
FTA Administration, and a handful of additional programs, was 
appropriated from General Fund revenues. These General Funded programs 
are equally important to the industry. We are sensitive to the 
constraints brought on by revenue limitations and competition from 
other discretionary programs. APTA urges Congress to appropriate 
funding for those programs at no less than the current authorized 
levels, and preferably at growing levels.
           the continuing need for federal transit investment
    Earlier this year, APTA announced that Americans took 10.7 billion 
transit trips in 2013, the highest ridership since 1956. This was the 
eighth year in a row that more than 10 billion trips were recorded on 
public transportation systems nationwide, demonstrating yet again that 
public transportation remains in demand. We expect continued growth in 
the coming years. MAP-21 was a welcome relief from years of temporary 
extensions. It provided reforms in several areas, and it recommitted 
the Federal Government as a partner with State and local governments, 
the transit industry, and the private sector. Public transportation 
systems require long-term funding certainty, in order to plan major 
capital projects, as well as to plan for procurement of rail cars, 
buses and facilities. In previous testimony to this subcommittee, APTA 
has cited U.S. Department of Transportation estimates that a one-time 
investment of $78 billion is needed to bring currently operating 
transit infrastructure up to a state of good repair, and this does not 
include annual costs to maintain, expand or operate the existing 
system. Research on transit needs shows that capital investment from 
all sources--Federal, State, and local--should be doubled in order to 
prepare for future ridership demands.
    The APTA authorization proposal and the Administration's budget 
proposal recognize the need for increased Federal funding to restore 
transit systems to a state of good repair and expand service to meet 
growing service demands. Public transportation is a vital component of 
the Nation's total transportation infrastructure picture and, with 
ridership projected to grow, safe and dependable public transportation 
systems will be vital to the transportation needs of millions of 
Americans. We must make significant, long-term investments in public 
transportation or we will leave Americans with limited transportation 
options, and in many cases, stranded without travel options. While 
Congress continues to consider how to proceed on a well-funded, multi-
modal surface transportation bill, it remains critically important that 
annual appropriations bills address both current and growing needs.
                federal transit administration programs
    Capital Investment Grants (New Starts).--Capital Investment Grants 
are the primary source of Federal investment in the construction or 
expansion of heavy rail, light rail, commuter rail, bus rapid transit 
and ferryboat projects. MAP-21 streamlined the approval process, but 
the primary issue continues to be the lack of funding. APTA's 
authorization proposal recommends $2.183 billion in fiscal year 2015--
with further growth in subsequent years--and the President's Budget 
request included $2.5 billion for Capital Investment Grants, both 
requests being supportive of moving forward on projects in an 
oversubscribed pipeline.
    Transit Research/Transit Cooperative Research Program (TCRP)/
Technical Assistance and Standards Development/Workforce Development.--
APTA strongly urges the committee to fund the Transit Cooperative 
Research Program (TCRP), Technical Assistance and Standards 
Development, and Human Resources and Training, at a minimum, at the 
levels authorized for fiscal year 2014 in MAP-21. As part of its 
recommendations for the next authorization bill, APTA is asking the 
authorizing committees to fund these programs through a take-down from 
the urban area formula allocation in the amount of $25 million in 
fiscal year 2015. Despite wide-spread support throughout the public 
transportation industry, these programs have received insufficient 
funding for work that improves the efficiency, effectiveness, safety 
and reliability of public transportation services nationwide. By 
consolidating industry knowledge and best practices, TCRP research, for 
example, has generated significant savings and reduced burdensome 
replication of efforts at the provider level. TCRP's reports, over 500 
in its 20 year existence, range in topics from fare collection to bus 
acquisition and maintenance, and are offered to the industry free of 
charge.
    In addition to the broad benefits of TCRP research, the public 
transportation industry and its Federal agency partners have advanced 
public transportation standards that have improved safety and reduced 
costs, by documenting and codifying the collective wisdom and best 
practices of the industry, while basing final documents on foundations 
in actual research and science, including field testing and computer 
modeling, as applicable. Furthermore, APTA members have also been vocal 
in their support for the Workforce Development program. With an aging 
workforce, we need to ensure that we are giving both current and next-
generation employees the skills they need to operate, repair and manage 
increasingly complex systems.
    Formula Grant Programs.--The backbone of the public transportation 
program, the core formula grant programs (Urban, Rural, State of Good 
Repair, and others) are funded from the Highway Trust Fund. Transit 
agencies across the country depend on full funding for these FTA 
programs, in order to work towards a state of good repair and to 
provide safe and timely service. APTA's authorization recommendations 
call for growth in the core formula programs and seek to maintain the 
relative balance between core formula and capital investment programs.
    We are also concerned about the current state of the Bus and Bus 
Facilities program. While we recognize the political dynamics that led 
Congress to formularize the program, the lack of a discretionary 
element inhibits the ability of small and mid-size bus-only system to 
acquire buses and build new facilities. Their needs are often referred 
to as ``lumpy'' as they are large and infrequent, and not easily 
addressed by an exclusively formula-based program. APTA's Authorization 
Recommendations call for the Bus and Bus Facilities Program to be 
restored to pre-MAP-21 levels ($984 million) by 2016 and to achieve a 
40/40/20 balance among State of Good Repair, New Starts, and Bus and 
Bus Facilities by 2019.
    Additionally, our Authorization Recommendations seek to grow the 
State of Good Repair program in a manner consistent with our principle 
of 40/40/20 balance across programs. Our transit agencies that operate 
forms of rail and fixed-guideway service have a tremendous backlog of 
state of good repair needs, and depend on the investments made 
available under this program.
                federal railroad administration programs
    As Congress begins to consider reauthorizations of the Rail Safety 
Improvement Act (RSIA) and the Passenger Rail Investment and 
Improvement Act (PRIIA), there are two important programs APTA wishes 
to emphasize as priorities for the industry.
    Positive Train Control.--The December 31, 2015 deadline for 
positive train control (PTC) implementation is rapidly approaching. 
Recent events have highlighted the need for improved safety on our 
Nation's railroads. APTA member railroads remain committed to 
installing a fully interoperable positive train control network, but 
with a cost exceeding $2 billion--excluding radio spectrum acquisition, 
operating, and other expenses--commuter railroads across the country 
require Federal assistance. Congress authorized $250 million for this 
program within Section 105 of the Rail Safety Improvement Act. Congress 
has appropriated only $50 million of the $250 million total authorized 
for PTC implementation under RSIA. APTA urges the Committee to support 
positive train control implementation by appropriating funding 
equivalent to the prior authorized level.
    While work is progressing on PTC installation, with nearly 4,000 
locomotives and passenger cars with control cabs, and 8,000 track 
miles, costs are beginning to mount. The total cost of implementation 
on commuter railroads is estimated to exceed $2.75 billion far 
exceeding initial estimates, and these estimates do not include the 
costs associated with acquisition of needed communications spectrum. 
Commuter railroads that have begun to install PTC are facing difficult 
choices as some will have to defer critical safety sensitive 
infrastructure maintenance projects to pay for PTC. As a group, these 
railroads have worked in good faith to comply with the Act's 
requirements. Additional funding provided by Congress for the Railroad 
Safety Technology grants is fundamental to the industry's ability to 
implement PTC.
    High-Speed and Intercity Passenger Rail Investment.--In our 
recommendations for successor legislation to MAP-21, APTA reaffirmed 
its commitment to high-speed and intercity rail, by calling for a 
separate reauthorization to succeed the Passenger Rail Investment and 
Improvement Act (PRIIA) of 2008. APTA recommends an authorization of 
$50 billion over 6 years to facilitate the development of a HSIPR 
system, funded by a dedicated and indexed Federal revenue source, and 
complemented by the use of public private partnerships. APTA calls for 
reauthorization of the Passenger Rail Investment and Improvement Act of 
2008 (PRIIA) through standalone legislation or as a separate rail title 
to surface transportation authorization. Passenger rail projects are 
advancing in 32 States and the District of Columbia, with each project 
supporting economic growth by creating construction and manufacturing 
jobs for American workers and attracting small businesses and new 
development that will generate domestic business growth.
    The U.S. Census Bureau estimates that the U.S. population of our 
Nation will grow by more than 100 million over the next 40 years. Such 
increases will overwhelm America's aviation, road and existing rail 
transportation infrastructure. To accommodate the needs of an every-
growing and highly mobile population, the United States must develop 
and continually expand a fully integrated multimodal high-speed and 
intercity passenger rail (HSIPR) system. Investing in infrastructure 
ensures the efficient movement of people and goods that is essential to 
continued economic growth and other national policy goals.
                               conclusion
    We thank the subcommittee for allowing us to share APTA's views on 
fiscal year 2015 public transportation and high-speed and intercity 
rail appropriations issues. APTA looks forward to working with the 
Committee as it makes investment decisions about the public 
transportation program.

    [This statement was submitted by Michael P. Melaniphy, President & 
CEO, American Public Transportation Association.]
                                 ______
                                 
 Prepared Statement of the Bipartisan Policy Center Housing Commission
    As you work on the Transportation, Housing and Urban Development, 
and Related Agencies fiscal year 2015 appropriations bill, it is our 
sincere hope that the Committee will maximize funding for our Nation's 
Federal rental assistance programs. These programs at the U.S. 
Department of Housing and Urban Development--Tenant-Based Rental 
Assistance, Project-Based Rental Assistance, and the Public Housing 
Capital and Operating Funds--provide vital support for millions of low-
income families who often struggle to make ends meet.
    As documented by the Bipartisan Policy Center Housing Commission in 
its report, Housing America's Future: New Directions for National 
Policy, our Nation is in the midst of a prolonged and deepening rental 
affordability crisis. Persistent unemployment and years of stagnating 
wages have eroded family budgets. At the same time, the collapse of the 
homeownership market in 2008 has created millions of new renter 
households, increasing competition for an already inadequate supply of 
affordable rental homes and putting upward pressure on rents. By all 
projections, rental demand will continue to be strong for the 
foreseeable future.
    The Housing Commission has 21 members from both political parties 
who bring to the table a wide variety of professional experiences. I 
co-chair the commission along with former Senators George Mitchell, Kit 
Bond and Mel Martinez. The commission's report offers recommendations 
on a range of issues, including affordable rental housing, housing 
finance reform, rural housing, and the housing needs of our Nation's 
seniors.
    Since we issued our report last year, the rental affordability 
crisis has worsened. According to Harvard's Joint Center on Housing 
Studies, more than half of all renters, or 21.1 million households, pay 
more than 30 percent of their incomes for housing (the traditional 
measure of affordability). Twenty-seven percent of all renters are 
``severely cost-burdened,'' paying more than 50 percent of their 
incomes just on housing costs. The situation is particularly dire for 
those at the bottom of the income ladder: a staggering 83 percent of 
renters with annual incomes under $15,000 were housing cost-burdened in 
2011 (the most recent year for which data is available), including 71 
percent whose housing costs consumed more than 50 percent of their 
budgets.
    According to the U.S. Department of Housing and Urban Development's 
2011 Worst Case Housing Needs report, nearly 80 percent of extremely 
low income renters report a rent burden, with 64 percent reporting a 
severe rent burden.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The same report points out that in 2011, only 4.2 million rental 
units were affordable and available to the Nation's 11.8 million 
extremely low income renter households, a major reason why extremely 
low-income renters face such high housing cost burdens.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Federal rental assistance programs serve as a lifeline for millions 
of low-income families, but the reach of these programs is limited by 
current funding levels. In fact, fewer than one in four eligible 
households receives Federal rental assistance. In many communities, 
Section 8 Housing Choice Vouchers are subject to years-long waiting 
lists or are allocated by lottery. Without assistance, many families 
are forced to make difficult trade-offs, such as foregoing spending on 
basic necessities such as food, healthcare, and education, to pay the 
rent each month. Others double-up with friends or family, rent low-cost 
apartments that are unfit for habitation or located in dangerous 
neighborhoods, or even face homelessness.
    In our report, the Commission strongly endorsed the 1949 Housing 
Act goal of a ``decent home and a suitable living environment for every 
American family.'' We noted that the poorest households among us suffer 
tremendous burdens. Increasing levels of poverty--particularly among 
children, elderly, and working families--give us a strong sense of 
urgency about reform to existing programs. Working to address these 
critical needs and achieve the goal laid out in 1949 is, of course, an 
ongoing enterprise requiring a sustained policy commitment and the 
dedication of adequate resources.
    At this moment in our Nation's history, as you and your colleagues 
work to put the Federal Government's fiscal affairs in order, we 
believe there must be a rebalancing of Federal expenditures on housing 
with greater focus on helping our most vulnerable households--homeless 
people and those with extremely low incomes--and those who are 
suffering a temporary loss of income or a short-term crisis that may 
jeopardize their housing stability. We do not believe our Nation's most 
impoverished families should be subject to a lottery system or spend 
years on a waiting list to obtain access to Federal rental assistance.
    In order to meet the affordable housing needs of the Nation's most 
vulnerable households and to ensure the overall quality of the housing 
stock, we recommended that the following four objectives guide Federal 
housing policy:
    1)  Transition to a system in which our most vulnerable households, 
        those with extremely low incomes (at or below 30 percent of 
        area median income) are assured access to housing assistance if 
        they need it. Assistance should be delivered through a reformed 
        Housing Choice Voucher program that, over time, limits 
        eligibility to only the most vulnerable families.
    2)  Increase the supply of suitable, affordable, and decent homes 
        to help meet both current and projected demand. To achieve this 
        goal, the Commission recommends dedicating additional Federal 
        funding beyond current levels to address the capital backlog 
        and ongoing accrual needs in public housing to preserve the 
        value of prior investments and improve housing quality for 
        residents.
    3)  Provide short-term emergency assistance for low-income renters 
        (those with incomes between 30 and 80 percent of area median 
        income) who suffer temporary setbacks to minimize harmful 
        housing instability. This assistance could be used to help 
        cover payment of security deposits, back rent, and other 
        housing-related costs to improve residential stability and 
        prevent homelessness.
    These recommendations, if fully implemented, would help to meet the 
        needs of an additional five million vulnerable renter 
        households and contribute to the elimination of homelessness--
        through production, preservation, and rental assistance.
    4)  Implement a new performance-based system for delivering Federal 
        rental assistance that focuses on outcomes for housing 
        providers and participating households. This system would 
        evaluate success in five key programmatic areas:
          -- improving housing quality;
          -- increasing the efficiency with which housing assistance is 
            delivered;
          -- enabling the elderly and persons with disabilities to lead 
            independent lives;
          -- promoting economic self-sufficiency for households capable 
            of work; and
          -- promoting the de-concentration of poverty and access to 
            neighborhoods of opportunity.
      Providers that achieve a high level of performance across these 
        five areas should be rewarded with increased flexibility to 
        depart from standard program rules, while substandard providers 
        should be replaced.
    While the needs are great and growing, we also understand that 
Federal resources are limited in today's budget-constrained 
environment. As you set priorities for funding, we urge you to put our 
Nation's Federal rental assistance programs at the top of the priority 
list and fund them to the fullest extent possible.
    Thank you for your consideration of this request. The commission 
looks forward to continuing our dialogue with the Committee on the 
critical affordable rental housing challenges facing our country.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors
    The Coalition of Northeastern Governors (CONEG) is pleased to share 
with the Subcommittee on Transportation, Housing and Urban Development, 
and Related Agencies this testimony on fiscal year 2015 appropriations 
for surface transportation and rail programs. The CONEG governors 
deeply appreciate the Subcommittee's longstanding support of funding 
for these programs. The governors recognize that the Subcommittee faces 
a very difficult set of choices in an environment of severe fiscal 
constraints, the pending shortfall in the Highway Trust Fund (HTF), and 
the pending expiration of the current authorization of Federal surface 
and rail transportation programs. Federal support is vital to 
maintaining the national transportation system, enhancing its capacity 
and resiliency to meet enormous and diverse needs, and contributing to 
a balanced, integrated national transportation system that supports the 
Nation's current and future economic growth. Therefore, the governors 
urge the Subcommittee to provide robust Federal funding for these 
programs that are the foundation of the Nation's Federal-State-local 
partnerships for surface transportation.
    Specifically, the CONEG governors urge the Subcommittee to:
  --Fund the highway obligation ceiling at the fiscal year 2014 
        appropriated levels as expeditiously as possible;
  --Expand the TIFIA program;
  --Fund Federal public transit programs at the fiscal year 2014 
        appropriated levels, with full funding for the transit formula 
        grants and capital investment grant programs, and preserving 
        the historic funding balance between these programs;
  --Fund Amtrak at levels that will support sound operations and a 
        balanced capital investment program, including the NEC capacity 
        improvements;
  --Maintain provisions to fund the Northeast Corridor Infrastructure 
        and Operations Advisory Commission;
  --Provide funding for the Intercity Passenger Rail Service Corridor 
        Assistance Program for corridor planning and capital 
        investment, including provisions for multi-State corridor 
        planning;
  --Provide funding for the RRIF program and such national rail 
        programs as the Rail Line Relocation program, the Next 
        Generation Corridor Train Equipment Pool, and critical rail 
        safety programs--including highway-rail grade crossing and 
        pedestrian safety and trespass prevention and the railroad 
        safety risk reduction program;
  --Provide $600 million for the TIGER program; and
  --Provide adequate funding for the Surface Transportation Board.
                         surface transportation
    The CONEG governors urge the Subcommittee in fiscal year 2015 to 
fund the highway obligation ceiling and public transit programs at 
least at the fiscal year 2014 levels and adequately fund safety and 
innovative financing programs. These levels of Federal investment are 
the minimum needed to slow the decline in infrastructure conditions and 
maintain the safety and resiliency of the Nation's highways, bridges, 
and transit systems.
    Continued and substantial Federal investment in these 
infrastructure improvements--in urban, suburban, exurban, and rural 
areas--is necessary to safely and efficiently move people and products 
and to ensure seamless connections while supporting the substantial 
growth in freight movement projected in the coming decades. 
Specifically, the CONEG governors urge the Subcommittee to:
  --Fund the highway obligation ceiling at fiscal year 2014 
        appropriation levels;
  --Take swift action to replenish the Highway Trust Fund as 
        expeditiously as possible to avoid delays or cancellations of 
        projects and the ensuing economic impacts;
  --Provide flexibility to States to fund any non-National Highway 
        System (NHS) bridge on the Federal-aid highway system under the 
        National Highway Performance Program (NHPP);
  --Include funding for infrastructure resilience planning and research 
        to enable States to better assess their vulnerabilities to 
        future weather events and reduce their risks;
  --Fund public transit programs at no less than the fiscal year 2014 
        appropriation levels, with full funding for the current transit 
        formula grants and capital investment grants, preserving the 
        historic funding balance between these programs;
  --Ensure that Federal transit funds are released to States and 
        designated recipients in a timely manner; and
  --Expand access to the use of innovative financing and public-private 
        partnerships to supplement direct Federal funding, including 
        Federal loan guarantees and credit assistance, such as the 
        Transportation Infrastructure Finance and Innovation Act 
        program (TIFIA).
                                  rail
    The governors deeply appreciate the Subcommittee's continued 
support for Amtrak and the funding in prior years for intercity 
passenger rail capital assistance. As the Congress undertakes a new 
authorization of the rail programs, they urge the Subcommittee to again 
provide funding for intercity passenger rail capital assistance in 
fiscal year 2015. This Federal funding, in addition to the Amtrak 
funding, is crucial to the effective Federal-State partnership that is 
currently developing intercity passenger rail corridors as part of a 
national, multi-modal transportation system.
    In the Northeast, continued, adequate Federal investment is 
critical to bring the current Northeast Corridor Network system to a 
state of good repair; help expand its capacity to meet the growing 
ridership; provide improved service; attract State, local and private 
sector investments in the intercity passenger rail system; and develop 
a coordinated, comprehensive vision and plan for future services. 
Without this investment, future commerce and mobility could be 
curtailed in a region that is an economic engine for the Nation. The 
Northeast States have already invested significantly in the passenger 
rail corridors of the region, and have leveraged Federal funds 
appropriated for intercity passenger rail projects eligible under the 
framework created by PRIIA (Public Law 110-432). The intense efforts of 
the States, Amtrak and freight railroads in recent years are now 
showing positive results in the Nation's busiest rail corridor.
    The support of this Subcommittee has helped make possible the 
recent joint planning and funding initiatives that are part of an on-
going coordinated effort to improve service. These coordinated efforts 
focus on reducing travel times, increasing speed, increasing service 
reliability and on-time performance, and eliminating choke points--in 
part by improving infrastructure through station upgrades, replacing 
aging bridges and electrical systems, installing track and ties, 
replacing catenary wires, and purchasing new locomotives.
    Amtrak.--The governors strongly urge the Subcommittee to provide 
Amtrak the specific funding levels requested in its fiscal year 2015 
General and Legislative Annual Report. These funding levels will enable 
Amtrak to continue a balanced program of adequate, sustained capital 
investment in infrastructure and fleet modernization programs that are 
vital for an efficient, safe and high quality intercity passenger rail 
system. The Amtrak capital request encompasses investments urgently 
needed to maintain the Northeast Corridor: advance the Gateway Program 
to expand track, tunnel and station capacity between Newark, N.J., and 
New York Penn Station; acquire new equipment; and improve accessibility 
for passengers with disabilities. These funding levels will begin to 
address the backlog of deferred investments, and make investments in 
near-term improvements in track, bridges, tunnels and equipment that 
will increase the capacity of the NEC to offer more reliable, frequent 
intercity service that can deliver more riders to their destination in 
less travel time. Improvements on the NEC can also help address the 
congested highway corridors and crowded Northeast airports that are a 
major source of travel delays nationwide.
    Intercity Passenger Rail Corridors.--To advance the initial 
investments made by the Federal Government and the States, the 
governors urge the subcommittee in fiscal year 2015 to fund a 
competitive Intercity Passenger Rail Corridor Capital Assistance 
Program, including provisions that fund the planning activities for the 
development of passenger rail corridors, including multi-State 
corridors.
    The governors thank the subcommittee for its past funding support 
of the planning activities for the Northeast Corridor--the NEC Future. 
This funding enabled the Federal Railroad Administration and the States 
to work cooperatively on the development of the programmatic 
environmental impact statement and a service development plan for the 
NEC through 2040. The work is expected to be completed by March 2015, 
and will provide the States and Amtrak the necessary framework to 
advance projects on the NEC.
    In recognition of the diverse travel markets served by the region's 
passenger rail corridors, the governors urge that these grant funds be 
available to States to advance plans for reliable, travel-time 
competitive service, regardless of maximum speed requirements. In light 
of the past stringent FRA requirements for intercity passenger rail 
grants, they request the Subcommittee to waive the current statutory 
requirement that projects be part of an approved State rail plan, since 
this requirement might curtail thoughtful and well-advanced efforts 
already underway by the States.
    Northeast Corridor Infrastructure and Operations Advisory 
Commission.--The governors thank the Subcommittee for its continued 
support of the Northeast Corridor Infrastructure and Operations 
Advisory Commission (Commission). To conduct the assessments required 
by Congress in a timely manner, the Commission needs resources, data 
and expert analysis that exceed those currently available through the 
staff of the States, Amtrak and FRA. Continued funding in fiscal year 
2015 will ensure the Commission's ability to secure all essential 
resources for conducting these assessments.
    The Commission is actively engaged in the development of a 
standardized formula to determine and allocate the costs, revenues and 
contributions among Amtrak and NEC commuter railroads that use each 
other's facilities and services. It is facilitating mutual cooperation 
and planning among the States, Amtrak, freight railroads, and the FRA 
so that all intercity, commuter and freight users of the Corridor can 
maximize the economic growth and the energy and environmental benefits 
of the larger regional NEC Network. This work will also guide the 
vision and service development plans that are a pre-requisite to fund 
projects that can enhance the capacity of the NEC.
    Other Programs.--A number of other national rail and intermodal 
programs are important components of Federal-State-private sector 
partnerships to enhance passenger and freight rail.
    The Railroad Rehabilitation and Improvement Financing Program 
(RRIF) is an important tool for railroads (particularly regional and 
short-line railroads) and public agencies to access the financing 
needed for critical infrastructure and intermodal projects. The 
governors also encourage the Subcommittee to provide funding for the 
Rail Line Relocation program, the Next Generation Corridor Train 
Equipment Pool, and critical rail safety programs, including highway-
rail grade crossing, pedestrian safety and trespass prevention, and the 
railroad safety risk reduction program.
    The governors support the continuation of the Transportation 
Investment Generating Economic Recovery (TIGER) Discretionary Grant 
program at $600 million to encourage investment in multi-modal, multi-
jurisdictional or other road, rail, transit and port projects that help 
achieve critical national objectives.
    The Surface Transportation Board requires adequate funding to meet 
its expanded responsibilities for intercity passenger rail corridor 
service, including its specific responsibilities regarding equitable 
cost-sharing formulas among States, Amtrak and commuter railroads.
    In response to the considerable increase in crude oil shipments by 
rail, ship, and barge, as well as the increase in serious derailments 
involving the transportation of crude oil, the governors request that 
the Subcommittee ensure that adequate resources are available to 
protect the public, prevent spills and safeguard our natural resources.
    The CONEG governors thank the entire Subcommittee for the 
opportunity to share these priorities and appreciate your consideration 
of these requests.
                                 ______
                                 
Prepared Statement of the Cook County Department of Transportation and 
                                Highways
    Chairwoman Murray, Ranking Member Collins and members of the 
Subcommittee on Transportation, Housing and Urban Development, and 
Related Agencies, thank you for the opportunity to submit written 
testimony to your Subcommittee. I especially want to thank our local 
Senators, Mr. Durbin and Mr. Kirk, for their continued support of Cook 
County and all things transportation in the Chicago region--the 
lifeblood of our local economy and our communities.
    My name is John Yonan, and I am the Superintendent of the Cook 
County Department of Transportation and Highways (CCDOTH). Cook County 
is an urban county in the upper northeastern section of the State of 
Illinois that contains more than 128 municipalities within its 
boundaries. With a population of approximately 5.3 million people, it 
is the second most populous county in the Nation and the 19th largest 
government in the United States. The Cook County DOTH was established 
in 1913 by the State of Illinois. Since then, the Department has 
focused primarily on the construction of area expressways and on the 
maintenance and rehabilitation of facilities under its management, 
which total 557 centerline miles of highways, 1,474 lane miles of 
pavement, 130 bridges, 332 traffic signals and five pumping stations 
from five maintenance garages.
    More recently, under the leadership of Cook County President Toni 
Preckwinkle, the Department has recognized its broader transportation 
planning and implementation responsibilities. These include renaming 
the Department of Transportation and Highways, in order to better 
respond to the range of transportation needs from freight and rail to 
transit and roads to bike and pedestrian issues. Moreover, Cook County 
DOTH is now using County transportation dollars and staff expertise on 
behalf of communities to better achieve local and regional community 
and economic development goals.
    The Department's current focus is the development of a Long Range 
Transportation Plan which should be completed by September 2015. It 
will identify the current and anticipated transportation demands of the 
County's residents and businesses all in conjunction with the County's 
economic development plans. Cook County DOTH supports the increase in 
robust funding for transportation infrastructure investments which are 
vitally important to the future of the State of Illinois and our Nation 
and would provide the Department with long-term certainty in order to 
execute the Long Range Transportation Plan.
    Cook County DOTH is also in support of the following Federal 
initiatives:
  --Federal funding for highways, bridges and transit which are 
        currently inadequate and should be increased substantially to 
        reflect the future needs of the surface transportation system
  --Increased funding directed towards county-owned roads, either 
        through a Federal sharing formula or as a direct pass through
  --To eliminate delays in project implementation, a funding mechanism 
        should be created that would allow projects below a certain 
        funding level to bypass the States and come directly to county 
        government
  --The availability of continuous county planning dollars for projects
  --An enhanced megaprojects funding mechanism either through the 
        Projects of National and Regional Significance (PNRS) program, 
        the Transportation Investment Generating Economic Recovery 
        (TIGER) Discretionary Grant Program or some other new program 
        established with long term funding certainty at levels 
        consistent with the President's outline for a surface 
        transportation reauthorization, $1.25 billion per year for 4 
        years. Cook County DOTH has several large meritorious projects 
        of regional significance that could benefit from an enhanced 
        PNRS and/or TIGER program, including but not limited to: the 
        Vollmer Road Project, the Central Avenue Connector Project, the 
        Lake Cook Road Project, and the Elgin-O'Hare Western Access 
        Project.
    CCDOTH supports the President's proposal of $5 billion in TIGER 
funding over the next 4 years and we look forward to the opportunity to 
work with this Committee to pass funding for this important program.
    Thank you again for the opportunity to submit written testimony and 
for your leadership on the Committee and in U.S. Senate. Please do not 
hesitate to contact me if you have any questions.

    [This statement was submitted by John Yonan, P.E., Superintendent, 
Cook County Department of Transportation and Highways.]
                                 ______
                                 
                   Prepared Statement of Easter Seals
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to submit testimony on behalf of Easter Seals. My testimony 
today focuses on mobility of people with disabilities and older adults 
and Easter Seals partnership with the Federal Transit Administration 
through Project ACTION and the National Center on Senior 
Transportation.
About Project ACTION:
    People with disabilities rely on public transportation to travel to 
work and to access services, supports and entertainment in their 
communities. Congress recognized the need to improve access to public 
transportation for people with disabilities and established a national 
technical assistance center called Project ACTION to partner with 
transportation providers, the disability community and others to 
achieve that goal. Congress recently reauthorized Project ACTION 
through the Moving Ahead for Progress in the 21st Century (MAP-21). 
Project ACTION is funded by the U.S. Department of Transportation's 
Federal Transit Administration (FTA). Easter Seals, Inc. won the 
competitive bid to manage Project ACTION for FTA.
    Project ACTION is the preeminent resource in the country for 
helping increase the mobility of people with disabilities. The project 
does an exemplary job of gathering and sharing best practices; 
providing technical assistance and training; facilitating strategic 
partnerships and community engagement to support the development and 
coordination of transportation options; developing and disseminating 
information, including the use of web-based and social media vehicles; 
and administering demonstration grants.
    Because the project is administered under cooperative agreements 
with the Department of Transportation, there is an annual defined work 
plan with specific goals and deliverables that are regularly reviewed 
and reported to the Department of Transportation. Every year Project 
ACTION is assessed on multiple factors including:
  --Driving systems change to expand accessible transportation at the 
        community level;
  --Leveraging other programs, partnerships, and coalitions to further 
        knowledge regarding accessible transportation;
  --Creating and deploying training initiative to expand and 
        disseminate knowledge regarding legislation and regulations in 
        the Americans with Disabilities Act (ADA) and other laws 
        associated with accessible transportation; and,
  --Serving as a resource to provide expertise and targeted assistance 
        to governmental and nongovernmental agencies in accessible 
        transportation and associated areas.
    Last year project staff supported 32 communities in intensive 
systems-change transportation planning activities, fielded 6,782 
information and referral requests and provided direct training to 3,457 
transit professionals and people with disabilities.
    Project ACTION's accomplishments include:
  --Providing direct technical assistance to transit providers, people 
        with disabilities and others through in-person, phone, online 
        and other consultation;
  --Creating and delivering direct training on critical mobility issues 
        affecting people with disabilities, transit providers and 
        community planners;
  --Working with communities to help them plan and implement strategies 
        to increase mobility;
  --Creating hundreds of useful guides, resources, tools and other 
        resources on critical issues affecting mobility for people with 
        disabilities and older adults that are available to transit 
        providers, people with disabilities service providers and the 
        general public for free; and,
  --Creating a strong collaborative environment between the disability 
        and transit community.
About the National Center on Senior Transportation:
    Older adults have some very unique needs when attempting to access, 
sometimes for the first time, public transportation to travel to work 
and to access services, supports and entertainment in their 
communities. Congress recognized the need to improve access to public 
transportation specifically for older adults and established the 
National Center on Senior Transportation (NCST) in 2005 as part of the 
Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU). Congress reauthorized the program in 
2012 as part of the Moving Ahead for Progress in the 21st Century Act 
(MAP-21).
    With funding from the U.S. Department of Transportation, Federal 
Transit Administration, NCST was launched in 2006 and has been 
administered by Easter Seals, Inc. in partnership with the National 
Association of Area Agencies on Aging (n4a). In April 2012, the Federal 
Transit Administration once again selected Easter Seals, Inc. and n4a 
to continue this important effort. From the Center's inception, experts 
in senior transportation and aging services have worked closely with 
the Center staff to provide expert advice and guidance on ways to 
achieve NCST's goals.
    The National Center on Senior Transportation's mission is to 
increase transportation options for older adults and enhance their 
ability to live more independently within their communities throughout 
the United States. NCST achieves this mission by gathering and sharing 
best practices, providing technical assistance and training, 
facilitating strategic partnerships and community engagement to support 
the development and coordination of senior transportation options, 
developing and disseminating information, and administering 
demonstration grants.
    Because the project is administered under cooperative agreements 
with the Department of Transportation, there is an annual defined work 
plan with specific goals and deliverables that are regularly reviewed 
and reported to the Department of Transportation. Every year the 
National Center on Senior Transportation is assessed on multiple 
factors including:
  --Providing technical assistance and training to providers of 
        transportation services for older adults;
  --Conducting strategic development in partnerships and community 
        involvement in human services transportation coordination;
  --Administering and managing demonstration grants and applied 
        research; and,
  --Carrying out program management and administration.
    Last year the NCST provided information and referral to 18,652 
transit professionals and older adults and facilitated an online 
community of 411 people creating solutions and sharing information on 
the issue of diversity and senior transportation.
    The Center has a strong commitment to promoting innovations at the 
community level and has provided funding and technical assistance to 
support a number of specific projects across the U.S. Working with 
individual communities, the NCST identifies effective and creative 
approaches for addressing the challenges that impact transportation 
services for older Americans. The NCST strives to bring together the 
aging, human service, and transportation providers to create solutions. 
Our work supports the full ``family'' of older adult transportation 
services, including programs using volunteers both as drivers and to 
accompany older adults to their destinations, travel training and 
orientation promoting increased use of public transit, older driver 
safety, education for caregivers, coordinated planning efforts and much 
more.
Easter Seals Appropriations Priorities:
    Easter Seals urges Congress to continue prioritizing programs that 
support mobility for people with disabilities and older adults. Our 
Nation must continue to address accessible transportation options as 
baby boomers age and transportation technology advances. To this end, 
we request that the Federal Transit Administration Technical Assistance 
and Standards Development program be funded at the authorized level of 
$7 million and include the following report language in the fiscal year 
2015 transportation appropriations bill.
    ``Of the amount provided for Technical Assistance and Standards 
        Development, no less than $3 million will be available for 
        technical assistance and training to increase mobility for 
        people with disabilities, no less than $1 million will be 
        available for technical assistance and training to increase 
        mobility for older adults.''
    Thank you for your consideration.
                                 ______
                                 
     Prepared Statement of the HOME Investment Partnerships Program
    Dear Chairman Murray and Ranking Member Collins: We appreciate this 
opportunity to provide testimony in support of HUD's HOME Investment 
Partnerships (HOME) program. HOME program funding is vital to the 
production and provision of housing affordable to low-income families. 
Yet, HOME has received devastating cuts--cut almost in half in just the 
past few years. To begin restoring funds for HOME, we implore you to 
fund HOME in fiscal year 2015 at $1.6 billion, equal to its fiscal year 
2011 funding level. We ask that you resist additional, disproportionate 
cuts to HOME and recognize both the successful track record of the 
program and the need for its continued funding at a time when our 
housing market, and broader economy, continues to struggle and the need 
for affordable housing continues to grow.
    Just since fiscal year 2011, HOME appropriations have been cut by 
38 percent from $1.6 billion to $1 billion in fiscal year 2014. Cuts to 
the HOME program are being felt deeply across the country. For example, 
the fiscal year 2014 HOME funding allocation to the state of Washington 
is 34 percent less than its fiscal year 2011 allocation, and the fiscal 
year 2014 allocation to the state of Maine is 38 percent less than its 
fiscal year 2011 allocation.
    Authorized in 1990, the HOME program provides grants to state and 
local governments to produce affordable housing for low-income 
families. HOME funds are a vital and unique source of financing for 
numerous affordable housing developments--many of which would not be 
possible without HOME assistance. States and localities use HOME for 
affordable housing production and rehabilitation, preservation, and 
rental and homeownership assistance.
    HOME uniquely empowers states and localities to respond to the 
housing needs they judge most pressing by flexibly working with and 
supporting many critical Federal housing programs, including the Low 
Income Housing Tax Credit and rural housing programs. States and 
localities use HOME to serve the whole spectrum of housing need, from 
homeless to ownership to disaster recovery, from urban to rural areas, 
and all low-income populations, including families with children, the 
elderly, veterans, and persons with special needs. HOME also enables 
for-profit and nonprofit developers to provide affordable housing in 
their communities.
    In its 20 years of existence, the HOME program has successfully 
produced more than 1.1 million affordable homes, in addition to making 
homes affordable for hundreds of thousands of families with direct 
rental assistance. HUD's February 2014 HOME National Production Report 
shows since 1992, states and localities have used HOME funds to produce 
485,639 homebuyer homes, 452,406 rental homes, and 226,302 
rehabilitated owner-occupied homes. Another 287,023 families have 
received tenant-based rental assistance through the HOME program. 
States and localities leverage HOME funding by generating more than $4 
in other private and public resources for every $1 of HOME. Over the 
program's lifetime, HOME funds have been used to leverage another $110 
billion for affordable housing.
    Based on projected production levels included in HUD's Fiscal Year 
2015 Budget request, if HOME is funded in fiscal year 2015 at the 
Administration's proposed level of $950 million, we expect 
approximately 31,000 fewer affordable homes will be produced than if 
HOME is funded at its fiscal year 2011 funding level. This means fewer 
homebuyer and rental units, fewer homeowner rehabilitation projects, 
and fewer tenants assisted.
    A strong investment in the HOME program is necessary to address the 
increasing demand for housing affordable to low-income families. The 
National Housing Conference's Housing Landscape 2014 reports that in 
2012 15.6 percent of all U.S. households, or 18.1 million households, 
were severely cost burdened, spending more than half their income on 
housing costs, with one in five working households facing severe 
housing cost burdens. Furthermore, nearly eight in ten extremely low-
income working households, with incomes of 30 percent or less of area 
median income (AMI), and more than a third of very low-income working 
households, with incomes of 50 percent or less of AMI, are severely 
housing cost burdened.
    HOME funding is used exclusively to create affordable housing for 
low-income households, those earning incomes of 80 percent or less of 
AMI. While the statute requires that at least 90 percent of families 
receiving rental assistance through HOME have incomes at 60 percent of 
AMI or less, almost 100 percent of those receiving HOME tenant-based 
rental assistance and 97 percent of families living in HOME-assisted 
rental units have incomes of 60 percent of AMI or less. One out of 
three families helped with HOME are extremely low-income.
    In addition to providing needed affordable housing, HOME funds 
contribute to job creation, especially in the hard-hit construction 
sector. Every $1 billion in HOME creates or protects approximately 
18,000 jobs. Restoring funding to $1.6 billion in fiscal year 2015 
would support approximately 28,800 jobs.
    As we face decreased investment in the production of affordable 
housing, we face a continued growing need for supply. According to 
HUD's latest Worst Case Housing Needs report, in 2011 nearly 8.5 
million very low-income families--who received no government housing 
assistance--paid more than half their monthly income for rent, lived in 
severely substandard housing, or both. This number is up 2.6 million, 
or 43.5 percent, since 2007.
    Recent analysis conducted by the National Low Income Housing 
Coalition, found that there are only 57 affordable rental homes 
available for every 100 very low-income renter households, and for the 
10.2 million households with extremely low incomes, there are only 31 
affordable homes available for every 100 households. Currently, only 
one in four households eligible for Federal rental housing assistance 
receives it due to limited resources.
    As a capital program, HOME is a vital resource for addressing this 
growing housing need. HOME funds produce new units of affordable 
housing and thus are necessary to increasing the overall supply of 
affordable housing. The Bipartisan Policy Center's Housing Commission 
in its recent report entitled Housing America's Future: New Directions 
for National Policy, called for an increase in HOME appropriations to 
serve as the gap financing needed to support new developments that 
would expand the supply of affordable rental housing. Further, HOME's 
use for rehabilitation activities helps to keep low-income families in 
safe and decent homes they can afford and prevents additional losses 
from the supply of affordable rental housing. For example, in rural 
areas, the HOME program has been a vital source of funding for the 
preservation of an aging portfolio.
    By enabling states and localities to address a variety of housing 
needs, HOME plays a unique role that cannot be filled by other 
programs. This is why we disagree with the Administration's suggestion 
that its proposed HOME funding reduction is mitigated by funding for 
the Housing Trust Fund. First, there is no current funding for the 
Housing Trust Fund. Second, the Housing Trust Fund's focus is narrower 
than that of HOME and therefore its funding does not make up for a loss 
of HOME funding. Consequently, we urge the Subcommittee to view the 
Housing Trust Fund as a complement to, not a substitute for, HOME and 
other affordable housing programs.
    A HOME program appropriation of $1.6 billion in fiscal year 2015 
would only go partway towards restoring HOME program funding, but it 
would provide states and local communities with the critical resources 
needed to help address the spectrum of affordable housing needs they 
face. Therefore, we urge you to support the proven outcomes of the HOME 
program by providing a fiscal year 2015 appropriation of $1.6 billion. 
Thank you for this opportunity to testify on the need for HOME funding. 
Please do not hesitate to contact us with any questions.

    Sincerely,

    CSH
    Consortium for Citizens With Disabilities Housing Task Force
    Council for Affordable and Rural Housing
    Council of State Community Development Agencies
    Enterprise Community Partners
    Habitat for Humanity International
    Local Initiatives Support Corporation
    Mercy Housing
    National Alliance of Community Economic Development Associations
    National Alliance on Mental Illness
    National Association of Home Builders
    National Association of Housing and Redevelopment Officials
    National Association of Housing Cooperatives
    National Council of State Housing Agencies
    National Housing Conference
    National Housing Trust
    National Low Income Housing Coalition
    National Rural Housing Coalition
    Practitioners Leveraging Assets for Community Enhancement
    Stewards of Affordable Housing for the Future
    The Community Builders, Inc.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                            interest of ime
    IME is the safety and security association of the commercial 
explosives industry. Commercial explosives are essential to energy 
production, construction, demolition, and the manufacture of metal/
mineral products. Explosives are transported and used in every State. 
The ability to transport and distribute these products safely and 
securely is critical to this industry. At some point, virtually all 
explosives are transported by truck. Among these explosives are 
products classed as Division 1.1, 1.2, 1.3 and 1.5 materials, which 
with other select hazardous materials, may only be transported by motor 
carriers holding a ``hazardous materials safety permit'' (HMSP) issued 
by FMCSA. According to program data, carriers of explosives make up the 
largest segment, roughly half, of the universe of HMSP holders.
    Our industry has maintained an exceptional safety record for 
decades. According to the Hazardous Materials Information System, no 
deaths have been attributed to commercial explosives since the 
Department of Transportation began collecting data in the 1970s. 
Despite the safety record of our industry, we have members who struggle 
when it comes to maintaining their HMSP qualification.
                         implementation issues
    Since the HMSP program's inception in 2005, we have urged FMCSA, in 
meetings, letters, and petitions, to relook at this program and make 
needed reforms. Over these 9 years, the HMSP program has been plagued 
by administrative missteps including double counting out-of-service 
(OOS) inspections and thousands of erroneous denials of applications. 
The crux of program's deficiencies can be laid on the requirement that 
the permit holder maintain OOS thresholds in the top 30 percent of the 
national average.\1\ In 2012, FMCSA provided ``interim'' relief by 
``fixing'' the OOS disqualification rates. Prior to the ``fix'', 
disqualification rates were recalculated every 2 years, thereby 
exposing carriers to the risk of losing their permits simply because 
they were being judged against a different universe of carriers at a 
particular point in time. Despite this reform, reliance on OOS rates to 
determine fitness is inherently unfair. Selection criteria for roadside 
inspections is not random (nor should it be given limited resources), 
which is to say that carriers do not have equal opportunity to amass 
``clean'' inspections. Not all OOS violations are crash-causal, and 
some are inherently biased by personal judgment. Further, the 
methodology used to determine ``significant'' inspection data lacks 
statistical confidence. We do not object to a public policy requiring 
that motor carriers transporting hazmats be held to higher safety 
standards. However, we do object to the bias and uncertainty that the 
current HMSP program breeds, especially when the program has shown no 
nexus to safety enhancement.
---------------------------------------------------------------------------
    \1\ The preamble and the regulatory text set forth in the 2003 
proposal, as well as the preamble to the HMSP final rule, describe the 
agency's intent to issue HMSPs to motor carriers with a 
``satisfactory'' safety rating. Those without a satisfactory safety 
rating would be eligible for a temporary HMSP if they had a crash rate 
in the top 30 percent of the national average, or a driver, vehicle, 
hazardous materials, or total OOS rate in the top 30 percent of the 
national average. The text of the final rule, however, required all 
carriers to perform to the OOS standards, irrespective of their safety 
rating.
---------------------------------------------------------------------------
                  safety benefits of the hmsp unproven
    FMCSA estimated that implementing the HMSP program would prevent 
seven hazmat truck-related crashes per year. The agency stated that the 
safety benefits derived from the projected crash reductions would be 
``large because of the number of conventional crashes that may be 
prevented.'' This has not proved to be the case. The data generated 
after the 9 years of the HMSP and during the 9 years immediately 
preceding the implementation of the HMSP shows that HMSP holders are 
historically among the safest carriers on the road and that the program 
has had little impact on safety:

--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                    1996-2004              2005-2013                All Hazmat Highway Incidents
                                                             -------------------------------------------------------------------------------------------
                        HMSP Material                                                                             1996-2004              2005-2013
                                                               Crashes   Fatalities   Crashes   Fatalities ---------------------------------------------
                                                                                                             Crashes   Fatalities   Crashes   Fatalities
--------------------------------------------------------------------------------------------------------------------------------------------------------
Explosives (25 kg. 1.1, 1.2, 1.3 & placarded 1.5)...........         39           0         29           0
-----------------------------------------------------------------------------------------------------------
RAM (HRCQ*).................................................         17           0         19           0
-----------------------------------------------------------------------------------------------------------
TIH.........................................................         59         **1         71         **2
-----------------------------------------------------------------------------------------------------------
Methane.....................................................          4           0          4           0
-----------------------------------------------------------------------------------------------------------
    Total...................................................        119           1        123           2      2,755          89      2,827          91
--------------------------------------------------------------------------------------------------------------------------------------------------------
Data from the Hazardous Materials Information System, 3/7/2014.
* It may be that none of these crashes are highway route controlled quantities (HRCQ). From the data in HMIS, it was possible to eliminate some
  incidents that were clearly not HRCQ. Where there was doubt the incident was counted.
** Anhydrous ammonia (AA) intended for agricultural use.

    For HMSP holders, this safety record highlights the need for an 
immediate reconsideration of the disqualifying standards that are 
threatening their livelihoods. Keep in mind that the vast majority of 
carriers subject to the HMSP are not long-haul, freight-all-kinds 
carriers. They serve niche markets that rely on local, often rural 
delivery, and require specialized equipment. As such, these carriers do 
not frequent routes with inspection stations. Once these carriers get 
into trouble based on the non-random, often subjective OOS calls by 
inspectors, it is virtually impossible for these carriers to accrue 
sufficient ``good'' inspections to overcome the ``bad.'' For example, 
it is not uncommon for an HMSP holder to average 15 or fewer 
inspections in a year, but only inspection data from the 12 months 
prior to the expiration of the holder's permit is counted, and only 
holders with at least three inspections are considered ``statistically 
significant'' for purposes of the OOS disqualifications. If two of the 
inspections in this timeframe result in an OOS,\2\ the carrier would 
need 28 ``clean'' inspections to requalify. The later into the 12-month 
qualification period that the second OOS occurs, the more unlikely it 
is that a carrier could recover. Consider that two similarly situated 
carriers each receive two OOS inspections, then one of the two obtains 
a third ``clean'' inspection. The carrier that received the clean 
inspection would lose its permit, the other would continue operating. 
Or consider that on any given day two similarly situated carriers could 
be ``underwater'' \3\ due to their current mix of OOS and clean 
inspections. However, because one carrier's HMSP expires that day, that 
carrier loses its permit, while the other continues to operate. Based 
on a snapshot of the status of HMSP holders on December 31, 2013, 26 
carriers were underwater and would have lost their permits if the 
permits expired that day, about 13 percent would have been disqualified 
if they had one more bad inspection, and 16.4 percent of holders had 
received no inspection of any kind in 24 months, demonstrating the 
difficulty of getting inspections where HMSP holders operate.
---------------------------------------------------------------------------
    \2\ This assumes that the OOS citation was correctly issued. CSA 
experience shows that FMCSA's ``Data Q'' process is overwhelmed and 
state ability and/or willingness to expend resources on these 
challenges is a growing concern. See DOT OIG Audit Report, MH-2014-032, 
March 5, 2014, pages 6-7.
    \3\ Exceeding the OOS disqualification thresholds: DOOS 9.68 
percent, VOOS 33.3 percent, and HMOOS 6.82 percent.
---------------------------------------------------------------------------
    These specialized carriers do not have the option to carry non-HMSP 
freight while working to requalify for a permit. The irony is that, 
when these carriers get into jeopardy, FMCSA does not routinely suspend 
or revoke the HMSP; rather carriers are allowed to operate until it is 
time to apply for renewal. The regulations allow for appeals when 
permits are suspended or revoked, but not if the carrier is applying 
for renewal. Under no circumstance may holders apply for a waiver of 
the OOS disqualification irrespective of their overall operational 
safety records.
                      request for expedited relief
    Although FMCSA accepted a petition for rulemaking from IME and 
other affected industry associations to reform the HMSP 
disqualification standards, ``the agency . . . determined that this 
rulemaking should not be initiated until the CSA Safety Fitness 
Determination (SFD) final rule is published, as it will be used as the 
basis for initiating this rule.'' \4\ We would like to strongly suggest 
that the HMSP reform take precedence over finalization of the SFD 
rulemaking, a rulemaking that has yet to be proposed. The agency's 
reluctance to immediately address the shortcomings of the HMSP is 
particularly troubling because implicit in FMCSA's acceptance of the 
rulemaking petition is an acknowledgment that the current program has 
deficiencies. These deficiencies will persist over the intervening 
years between now and the time that they are resolved through the 
promised HMSP rulemaking. Meanwhile, the controversy over the evolving 
SFD standards adds to the timing uncertainty. Expecting HMSP holders to 
soldier on in the face of continuing adverse impacts is unjustified.
    Congress tried to spur agency action by requiring that the agency 
do an assessment of the program's deficiencies no later than October 1, 
2013 and directed that rulemaking to reform the HMSP program be 
initiated within the following fiscal year.\5\ However, the agency 
failed to deliver the assessment. With mounting concern about FMCSA's 
inaction, Congress directed the agency to report by March 19, 2014 on 
improvements that could be made to the HMSP program within ``existing 
authorities to provide relief to [HMSP holders] prior to instituting a 
rulemaking, and when FMCSA anticipates implementing each of these 
interim improvements.'' \6\ While FMCSA subsequently released its 
program assessment over 5 months late on March 11, 2014, it had done no 
work on the March 19th report when we requested a copy claiming that 
the agency was unaware of the congressional request.\7\
---------------------------------------------------------------------------
    \4\ Letter to IME from FMCSA, November 14, 2011, page 1. (Emphasis 
added.)
    \5\ ``MAP-21'' (Public Law 112-141), Section 33014.
    \6\ Fiscal year 2014 Omnibus, Division L, page 1, reference to 
H.Report 113-136, page 38. (Emphasis added.)
    \7\ Conversation between Paul Bomgardner, FMCSA, and Cynthia 
Hilton, IME, March 19, 2014.
---------------------------------------------------------------------------
    While the assessment documented the exceptional safety record of 
HMSP holders and laid out options to reform the program, including a 
process to request agency review of a carrier's safety management 
controls prior to denial of a HMSP, FMCSA stated that it was still 
studying options and that efforts to reform the program ``remain 
contingent upon completion of other FMCSA priorities and the 
availability of dedicated resources.'' \8\ Every day that FMCSA fails 
to act, relatively good carriers are at risk of losing their HMSP and, 
as explained, being put out of business based on limited data 
anomalies.
---------------------------------------------------------------------------
    \8\ The Hazardous Materials Safety Permit Program Implementation 
Report to Congress, March 2014, page 9.
---------------------------------------------------------------------------
    Justice is not served by inattention to these pressing concerns. 
The uncertainty of when FMCSA will be able to carry out the HMSP 
rulemaking coupled with the urgency for some action based on 
acknowledged program deficiencies compel us to ask the Subcommittee to 
support the following funding restriction:
   ``No funds may be used to deny an application to renew a Hazardous 
        Materials (HM) Safety Program permit for a motor carrier based 
        on that carrier's Hazardous Materials Out-of-Service (OOS) 
        rate, unless the carrier has the opportunity to submit a 
        written description of corrective actions taken, and other 
        documentation the carrier wishes the Secretary to consider, 
        including submitting a corrective action plan, and the 
        Secretary determines the actions or plan is insufficient to 
        address the safety concerns that resulted in that Hazardous 
        Materials OOS rate.''
    This funding restriction is consistent with the policy Congress 
wanted FMSCA to develop on its own, which is to provide for an 
additional level of safety fitness review (ALSFR) prior to the denial 
of a safety permit until such time that the agency proceeds with the 
full rulemaking based on our petition. An ALSFR would not overly burden 
the agency, as it would involve an examination of less than 100 HMSP 
holders annually.
                               conclusion
    Congress envisioned a risk-based safety program for hazmat 
carriers. It gave FMCSA wide latitude to name the types and quantities 
of hazardous materials that should be covered by a HMSP. But, the 
agency has limited the program to the narrow list of statutorily 
mandated materials. History shows that carriers of these materials are 
not presenting the crash risk that the agency claims the HMSP will 
address. Neither IME nor its members object to public policy that holds 
hazmat carriers to a higher safety standard, which is the premise for 
the HMSP. We do object, however, to the current standards for 
disqualification. They are not risk-based and deny holders meaningful 
due process protection. Inspection frequency and outcome do not seem to 
correlate to crashes or fatalities. Thank you for your attention to 
these concerns.

    [This statement was submitted by Cynthia Hilton, Executive Vice 
President, Institute of Makers of Explosives.]
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
                            interest of ime
    IME is the safety and security association of the commercial 
explosives industry. Commercial explosives underpin the economy. They 
are essential to energy production, construction, demolition, and the 
manufacture of metal/mineral products. Explosives are transported and 
used in every State. Additionally, our products are distributed 
worldwide, while some explosives must be imported because they are not 
manufactured in the United States. The ability to transport and 
distribute these products and to receive precursor chemicals safely and 
securely is critical to this industry.
                               background
    The production and distribution of hazardous materials is a 
trillion-dollar industry that employs millions of Americans. These 
materials contribute to America's quality of life, but if handled 
improperly, adverse consequences can result. The threat of intentional 
misuse of these materials also factors into public concern. To protect 
against these outcomes, the Secretary of Transportation (Secretary) is 
charged under the Hazardous Materials Transportation Act (HMTA) to 
``provide adequate protection'' against these risks through regulation 
and enforcement.\1\ The Secretary has delegated the HMTA authorities to 
various modal administrations, with primary regulatory authority 
resting in the Pipeline & Hazardous Materials Safety Administration 
(PHMSA).
---------------------------------------------------------------------------
    \1\ 49 U.S.C. Chapter 51.
---------------------------------------------------------------------------
    PHMSA regulates hazmat transportation so closely that such 
materials may not be moved any distance, via any mode of transportation 
unless a DOT regulation, permit or approval authorizes the movement. 
Such close regulation makes efficient consideration of such 
authorizations critical to the industries and workers involved, as well 
as to the national defense, the security of our homeland, and the 
economy at large.
          phmsa's fiscal year 2015 ``user fee'' budget request
    PHMSA has re-proposed for the fourth consecutive year a ``user 
fee'' to be paid by applicants for special permits and approvals that 
would offset over 23 percent of the agency's budget request. We commend 
both the authorizing and appropriating committees of Congress for 
rejecting this request in prior years, and urge similar restraint this 
year. Based on the PHMSA's 2013 workload, the fees, which range from 
$700 to $3,000/application, will generate nearly $19.8 million, 65 
percent more than the $12 million offset requested. Yet, PHMSA 
discloses that it needs less than $9.7 million to administer the 
special permits and approvals program and other agency tasks and 
responsibilities.\2\ Explosives may not be self-classified. By 
regulation, manufacturers are required to request a classification 
approval from PHMSA for each product based on UN-mandated tests 
performed at DOT-approved labs. Since explosives manufacturers have no 
choice but to seek approvals, the user ``fee'' is really a ``tax'' on 
our industry. Explosive manufacturers, including fireworks, hold over 
75 percent of all approvals. Based on fiscal year 2013's workload, 
$11.4 million would be generated from this activity alone. PHMSA has 
testified that its administrative costs ``will progressively increase 
[including costs of] increasingly stringent monitoring of a company's 
fitness.'' \3\ The need for stringent monitoring is questionable since 
no fatalities have been attributed to hazardous materials moved under 
special permit or approval since DOT began keeping statistics. In fact, 
costs to run the program should decrease as the agency incorporates 
proven special permits into the hazardous materials regulations (HMR) 
as required by law.
---------------------------------------------------------------------------
    \2\ Fiscal Year 2015 PHMSA Budget Justification, page 64.
    \3\ Statement of Cynthia Quarterman, PHMSA, to the House 
Transportation & Infrastructure Committee, April 2, 2014.
---------------------------------------------------------------------------
  phmsa's hazmat program is a success: rulemaking and data collection 
                               priorities
    As noted above, the HMTA requires that PHMSA's regulations be risk-
based. The agency, in turn, measures the success of its hazmat safety 
program by the number of transportation-related deaths and ``serious 
injuries'' (i.e., hospitalizations) attributed to the hazardous 
materials. Data shows the relative safety of hazmat transportation 
compared to other causes of death. Only 12 deaths, all due to human 
error, not a failure of a regulatory standard, were attributed to 
hazardous materials in 2013. None, since the early 1970s, have been 
attributed to commercial explosives. This contrasts with thousands of 
deaths annually that result from crashes involving large trucks, for 
example.
    This safety outcome suggests that PHMSA needs to focus on two core 
missions: rulemaking, including the timely issuance of approvals and 
permits to keep commerce moving, and data collection and public access 
to the data. For example, we were very concerned that no new resources 
above baseline were requested last year to support rulemaking activity. 
MAP-21 makes clear that rulemaking, including accelerating the 
incorporation of special permits into the HMR, is a priority. One such 
rulemaking, which would incorporate special permits authorizing the use 
of ``multi-purpose bulk trucks'' critical to our industry, has been 
pending in the Office of the Secretary of Transportation for over a 
year.\4\ PHMSA needs to maintain resources to remain active in 
international standard-setting forums to ensure that U.S. rules are 
consistent to keep American goods moving in the global marketplace. 
PHMSA's ability to collect incident data is critical to stakeholder's 
ability to understand and learn from incidents. Additionally, the 
agency's efforts to enhance the online availability of incident data, 
rulemakings, and the timeliness of processing applications for special 
permits and approvals should be commended and encouraged. PHMSA's 
$371,000 request for IT modernization should be supported.\5\
---------------------------------------------------------------------------
    \4\ HM-233D was originally scheduled to be sent to OMB March 28, 
2013.
    \5\ Fiscal Year 2015 PHMSA Budget Justification, page 93.
---------------------------------------------------------------------------
                      budgetary issues to consider
    Research & Development.--Congress provides 3-year monies to support 
a hazmat research and development (R&D) function within PHMSA, with a 
mission to study and evaluate emerging hazardous materials safety 
issues and technologies. It is agency practice not to obligate R&D 
funds until the end of the 3-year cycle. PHMSA is currently holding 
over $5.5 million for R&D since no fiscal year 2012, 2013, or 2014 
funds have been obligated. It hardly seems good fiscal policy to idle 
funds for 3 years. Given this practice, it is hard for us to understand 
how PHMSA justifies a need to more than double its funding request for 
the fiscal year 2015-2017 cycle.
    We have asked for more accountability and transparency into the 
process PHMSA uses to select projects for funding and additional 
insight into the deliverables the agency expects to receive. This year, 
for the first time, PHMSA held a forum to present research projects the 
agency is evaluating for fiscal year 2012-2014 funding to be spent in 
fiscal year 2015.\6\ While PHMSA should be commended for this 
initiative, we were disappointed that a project we thought had been 
rejected in the fiscal year 2011-2013 cycle was still being considered 
for funding in the fiscal year 2012-2014 cycle. This year and last 
PHMSA has proposed research to ``harden vehicles carrying ammonium 
nitrate (AN) against tire fires.'' \7\ PHMSA stated that this research 
is justified by the accidental detonation of AN in 2013 at an 
agricultural retail facility--a non-transportation tragedy. While the 
root cause(s) of the event has yet to be determined, it is abundantly 
clear that the facility did not comply with basic safety standards for 
the safe storage and handling of AN. PHMSA's exploitation of this event 
as a justification for truck hardening research cannot be supported in 
light of decades of data demonstrating the enviable safety record 
earned year after year by those transporting AN.\8\ In response to our 
objections, R&D staff suggested that the research be broadened to also 
include the hardening of vehicles carrying commercial explosives. 
Again, PHMSA's own incident data begs the question of what problem 
PHMSA is trying to solve by shifting the focus to truck fires involving 
products manufactured and used by the explosives industry only.\9\ We 
strongly urge the agency to reallocate these funds to other more 
deserving projects.
---------------------------------------------------------------------------
    \6\ Fiscal Year 2015 PHMSA Budget Justification, pages 65-66.
    \7\ The explosives industry consumes 75 percent of the AN used in 
the United States. It constitutes 90 percent of explosives by weight. 
There is no viable alternative for this material in today's explosives 
industry.
    \8\ Since 1973 when DOT began keeping hazardous materials incident 
records, 139 truck incident reports involving Division 5.1 materials 
and fire have been recorded. Of these, four involved AN, but none 
resulted in a fatality or any injuries attributable to the AN. During 
the same period, 11,407 Division 5.1 incidents from all causes were 
recorded. Only 408 involved AN. Again, no fatalities were attributed to 
the product.
    \9\ Since 1973, 33 truck incident reports involving Class 1 
materials and fire were filed. Of these, one fatality was reported, but 
the explosives product was a military, not a commercial, explosive. 
When DOT's data is queried for Class 1 trucking incidents from all 
causes, 567 were recorded. Five resulted in 11 fatalities. Again, none 
of these five incidents involved commercial explosives. By way of 
contrast, DOT's data shows 325 incident reports involving trucks 
carrying hazardous materials and fire with at least one fatality. Of 
these, 38 records report multiple fatalities.
---------------------------------------------------------------------------
    Grants Programs (GP).--PHMSA operates three GPs--HMEP, HMIT, and 
SPST--funded by fees assessed on the hazardous materials community. We 
have long looked for evidence of program accomplishment and question 
the agency's claims about achievements ascribed to these programs. In 
2005, Congress directed the agency to annually provide a detailed 
accounting of all grant expenditures.\10\ In the intervening 8 years, 
the agency has released only one such report, and that report did not 
provide the retrospective accounting necessary to determine if grant 
recipients were using funds appropriately.\11\ The lack of GP 
transparency and accountability prompted an audit by the Office of 
Inspector General. The audit found systemic mismanagement and misuse of 
grant funds.\12\ In response, PHMSA has produced an action plan to 
ensure better management controls. PHMSA is requesting $1.6 million to 
raise awareness of its grants programs.\13\ Before funds are expended 
to continue the same mix of programs, we think PHMSA should relook at 
how it can leverage the funds to best improve hazmat transportation 
safety.
---------------------------------------------------------------------------
    \10\ 49 U.S.C. 5116(k).
    \11\ Http://phmsa.dot.gov/staticfiles/PHMSA/DownloadableFiles/
Files/Report_to_Congress_HMEP_Grants_Program 2005_2006.pdf.
    \12\ OIG, DOT, AV-2012-040, January 12, 2012.
    \13\ The new outreach efforts are intended to assist grantees to 
incorporate planning and training activities that qualify for grants. 
fiscal year 2015 PHMSA Budget Justification, pages 67.
---------------------------------------------------------------------------
    All of the grants support hazmat safety training for responders or 
hazmat employees, and we are looking for opportunities to expand 
training within the three grant programs. The best opportunity for 
achieving this objective lies with the HMEP program. This program 
provides $8.15 million annually to fund an EPA program for community-
based planning for chemical emergencies--the SERC/LEPC emergency 
planning process required by EPCRA--a program widely-recognized as 
dysfunctional. Historically, EPA has paid no attention to this program, 
and internal assessments show that the program suffers from 
mismanagement and neglect. Historically, EPA has paid no attention, and 
internal assessments show that the program suffers mismanagement to 
neglect. In recognition of the marginal value to DOT of funding an EPA 
program, Federal hazardous materials transportation law was amended in 
2005 to allow PHMSA the ability to move planning funds to the training 
account. Regrettably, PHMSA has never exercised this authority. One of 
the outcomes of the tragic agricultural retail facility accident 
mentioned above has been a commitment by EPA to revitalize the SERC/
LEPC program. In its fiscal year 2015 budget submission, $12 million is 
requested to support this program. This gives Congress an opportunity 
to realign grant program priorities. We believe that PHMSA should 
exercise its 2005 authority and transfer all HMEP planning funds to 
support training only. Training needs are never satisfied especially 
when 69 percent of firefighters in the United States are volunteers. We 
support efforts to expand training opportunities within the HMTA grant 
programs.
                               conclusion
    We ask the Subcommittee to again resist user fees and taxes that 
have been proposed without authorization. We encourage the Subcommittee 
to hand off to your colleagues on the Interior, Environment, and 
Related Agencies Subcommittee responsibility for funding EPA's EPCRA 
programs and to enhance training opportunities for emergency responders 
and hazmat workers. We urge additional oversight of PHMSA's hazmat R&D 
and grants programs. Finally, we believe PHMSA should be given 
resources to improve its information technology and rulemaking 
capacities. These services are needed by the hazmat community, given 
PHMSA's close regulatory scheme, to enable the safe, secure and 
efficient movement of hazardous materials critical to the economy.

    [This statement was submitted by Cynthia Hilton, Executive Vice 
President, Institute of Makers of Explosives.]
                                 ______
                                 
   Prepared Statement of the National Affordable Housing Management 
                              Association
    Thank you, Chairwoman Murray and Ranking Member Collins for the 
opportunity to submit this testimony on behalf of the National 
Affordable Housing Management Association (NAHMA). My testimony 
concerns the U.S. Department of Housing and Urban Development (HUD) 
budget request for fiscal year 2015. I will primarily focus on the 
importance of providing full-funding at the level of $11.9 billion for 
the 12-month contract terms under Project-Based Section 8. I will also 
request the Subcommittee's support for other key HUD rental assistance 
programs. Specifically, I will urge the Subcommittee to support $18.457 
billion for the Housing Choice Voucher program contract renewals. For 
the programs Section 202 Housing for the Elderly and Section 811 
Housing for the Disabled, please provide at least $440 million and $160 
million respectively. I will urge the Subcommittee to provide $30 
billion in commitment authority for the FHA General and Special Risk 
Insurance Fund. HOME should receive $1.6 billion, and the Community 
Development Block Grant (CDBG) should receive at least $3.03 billion. 
Finally, I will express NAHMA's strong support for funding HUD's 
Limited English Proficiency Initiative (LEPI) technical assistance 
program and expanding the Rental Assistance Demonstration Program.
    NAHMA strongly urges the Subcommittee to reject cuts to affordable 
multifamily housing programs administered by the Department of Housing 
and Urban Development (HUD). In fiscal year 2015, NAHMA strongly urges 
the Subcommittee to provide the necessary appropriations to ensure that 
all of HUD's rental assistance programs receive full-funding for their 
12-month contact terms.
                              about nahma
    NAHMA members manage and provide quality affordable housing to more 
than two million Americans with very low to moderate incomes. 
Presidents and executives of property management companies, owners of 
affordable rental housing, public agencies and national organizations 
involved in affordable housing, and providers of supplies and services 
to the affordable housing industry make up the membership of NAHMA. In 
addition, NAHMA serves as the national voice in Washington for 19 
regional, State and local affordable housing management associations 
(AHMAs) nationwide.
                        project-based section 8
    In the Project-Based Section 8 Program (PBS8), HUD contracts with 
private apartment owners to pay the difference between the rent for the 
unit and 30 percent of a qualified tenant's income. The rental subsidy 
in the PBS8 program is tied to the property. This program provides 
housing to more than 1.2 million low-income households, over half of 
which are elderly or disabled. According to HUD, the program supports 
100,000 jobs, and PBS8 properties generate $460 million in tax receipts 
to local and State governments.
    For PBS8, HUD requested a total of $9.75 billion, an amount that is 
$170 million below the fiscal year 2014 enacted level. Of this sum, 
$9.54 billion would be used for contract renewals. The request also 
includes $400 million in advanced appropriations.
    In fiscal year 2014, knowing that the funding level would result in 
partially funded contracts, Congress provided $9.65 billion for PBS8 
contract renewals. With this in mind, NAHMA is alarmed that the 
Department is asking for even less for fiscal year 2015. The slated 
$9.54 billion for fiscal year 2015 PBS8 renewals is insufficient to 
obligate full-funding for the 12-month contract terms. HUD has stated 
that the reason for its lower request in fiscal year 2015 is due to the 
Department's desire to shift the funding cycle for contract renewals to 
a ``calendar year'' schedule running from January 1--December 31, 
rather than the current fiscal year funding cycle, which runs from 
October 1--September 30. HUD argues that this proposal will minimize 
funding disruptions under continuing resolutions, provide the ``true 
cost'' of the program at the beginning of the appropriations process, 
and lead to consistent 12 month funding for PBS8 contracts in fiscal 
year 2016 and beyond. The Agency also cites the Housing Choice Voucher 
Program as a model for using a calendar year payment cycle.
    NAHMA strongly opposes the proposed cut to project-based Section 8, 
and we do not support moving the renewal cycle to a calendar year. 
NAHMA's position on funding for PBS8 contract renewals remains clear 
and unequivocal:
  --The Federal Government must honor its contracts with property 
        owners;
  --PBS8 contracts must receive full funding for their 12 month terms; 
        and
  --PBS8 contracts must have 12 months of funding obligated upfront at 
        the time of renewal.
    HUD's request does not meet these criteria.
    NAHMA is skeptical about HUD's estimates for renewals. In fiscal 
year 2014, senior HUD officials informed industry stakeholders that 
$11.5 billion would be necessary to obligate upfront funding for 12-
month PBS8 contracts at the time of renewal and to recover the funding 
lost from sequestration. It is our understanding that the cost to fully 
fund the 12-month terms of all contracts expiring in fiscal year 2015 
is $11.9 billion, yet HUD has requested only $9.54 billion. Secretary 
Donovan has said $10.8 billion will be necessary in fiscal year 2016 to 
fund contracts for 12 months under the calendar year model. As the 
Subcommittee knows, sequestration may return in fiscal year 2016 unless 
Congress delays, replaces or repeals it. Full funding for PBS8 
contracts is essential, but HUD's proposal simply leaves too much to 
chance by pushing costs into fiscal year 2016. The proposal also 
provides no guarantee that contracts will actually receive the full 12 
months of funding in the future.
    HUD is basically proposing to divorce the contract anniversary date 
(which will still fall during any of the 12 months in the calendar year 
for the 17,400 existing contracts) from the contract funding date 
(which HUD proposes as a single day on January 1). NAHMA is concerned 
this proposal amounts to a budget-gimmick that will not save the 
government any money. The necessary funding will still fall over two 
different fiscal years, as it does now when HUD ``short funds'' 
contracts (from the anniversary date to the end of the Federal fiscal 
year).This proposal, however, leaves HUD absolutely no room for 
contingencies if Congress does not provide the necessary funding for 12 
months of renewals in future fiscal years. Without full funding for 
renewals in later fiscal years, HUD would either have to prorate 
funding or stop making contract payments.
    There are very real consequences to underfunding PBS8 renewals. 
Specifically, insufficient contract funding:
  --Places taxpayers at risk of draws on FHA insurance if a property 
        defaults on its FHA mortgage;
  --Jeopardizes the efficient management, financial solvency, and 
        physical health of PBS8 properties;
  --Jeopardizes investor and owner confidence in the PBS8 program;
  --Increases operating costs because properties accumulate numerous 
        late fees to lenders and service providers as a result of 
        having insufficient funds to make mortgage and utility bill 
        payments; and
  --Leads to postponed or cancelled rehabilitation and renovation 
        plans.
    For these reasons, NAHMA strongly urges the Subcommittee to provide 
$11.9 billion in fiscal year 2015 for full funding of the 12-month 
contract terms of Project-Based Section 8 contracts.
            other critical hud multifamily housing programs
    In addition to Project-Based Section 8, NAHMA is concerned about 
funding levels for the following programs:
  --NAHMA urges the Subcommittee to provide $18.457 billion for 
        contract renewals in the Housing Choice Voucher Program (HCV, 
        or tenant-based Section 8). HUD requested only $18.01 billion 
        for HCV contract renewals. According to the National 
        Association of Housing and Redevelopment Officials (NAHRO) and 
        the Public Housing Authorities Directors Association (PHADA), 
        $18.457 billion will ensure the renewal of assistance for all 
        voucher-assisted low-income households served in 2014 and also 
        restore leasing of 42,000 vouchers that were lost in 2013.
  --For Section 202 Housing for the Elderly, NAHMA requests at least 
        $440 million. HUD's request for this program also includes $350 
        million for the renewal and amendments of Project Rental 
        Assistance Contracts (PRACs), and $70 million for the Service 
        Coordinator program. Also requested is $20 million for Elderly 
        Project Rental Assistance (PRA) that will be used to support 
        the funding of new affordable housing with services models for 
        very low-income elderly to age in place. Ideally, NAHMA would 
        also like to see funding for new construction of senior 
        apartments restored.
  --The General and Special Risk Insurance Fund programs provide 
        mortgage insurance for financing the development or 
        rehabilitation of multifamily housing, nursing homes and 
        hospitals. NAHMA supports HUD's request of $30 billion in 
        commitment authority.
  --The HOME Investment Partnerships (HOME) program is the largest 
        Federal block grant to State and local governments designed 
        exclusively to produce affordable housing for low-income 
        families. Both HOME and CDBG provide essential gap financing 
        for development of Low Income Housing Tax Credit (LIHTC) 
        properties. NAHMA requests that the Subcommittee restore 
        funding for this program to the fiscal year 2011 level of $1.6 
        billion.
  --NAHMA supports HUD's proposal to expand preservation options under 
        the Rental Assistance Demonstration (RAD) program by offering 
        properties with Section 8 Moderate Rehabilitation (Mod Rehab), 
        Rental Assistance Payment (RAP) and Rent Supplement (Rent Supp) 
        contracts an option to convert to project-based section 8 
        contracts. Currently, such owners are able to convert the 
        tenant protection voucher assistance that is triggered at 
        contract expiration or termination to Project Based Voucher 
        (PBV) assistance.
  --NAHMA supports HUD's request of $300,000 for the Limited English 
        Proficiency Initiative (LEPI). NAHMA applauds HUD's work in 
        translating many of its official documents into foreign 
        languages spoken by many assisted residents. This small amount 
        of funding has helped relieve property owners of an obligation 
        to provide translation services that could have diverted funds 
        from repairs and maintenance of the properties.
                               conclusion
    Thank you again for the opportunity to submit this testimony. I 
look forward to working with the Subcommittee to ensure essential HUD 
rental assistance programs are fully funded and properly administered.

    [This statement was submitted by Kris Cook, CAE, Executive 
Director, National Affordable Housing Management Association.]
                                 ______
                                 
       Prepared Statement of the National AIDS Housing Coalition
    The National AIDS Housing Coalition (NAHC) is a nonprofit housing 
policy and advocacy organization working to end the HIV/AIDS epidemic 
by ensuring that persons living with HIV have quality, affordable, and 
appropriate housing. NAHC advances this goal through policy and 
resource advocacy, by fostering, translating, and disseminating 
research findings on the link between housing and HIV health outcomes, 
and by convening leaders at the local, national, and international 
levels. NAHC's network of members includes people living with HIV/AIDS 
in all parts of the U.S. who rely on Federal housing assistance to 
ensure the stability necessary to benefit from lifesaving HIV 
treatment. On their behalf, we ask that you fund the Department of 
Housing and Urban Development's highly successful and cost effective 
Housing Opportunities for Persons With AIDS Program (HOPWA) at a level 
of at least $350 million for fiscal year 2015.
    Housing need among low-income Americans living with HIV (PLWHA) far 
exceeds available housing assistance. HUD reports that during the 2012-
2013 program year, HOPWA grantees were able to serve less than one-
third of the HOPWA-eligible low-income households.\1\ While funding 
HOPWA for $350 million in fiscal year 2015 would provide assistance to 
far fewer than the actual number of people with HIV/AIDS that are 
eligible for, and in need of, HOPWA housing assistance, it would permit 
assistance for an additional approximately 6,600 households beyond the 
56,440 unduplicated households served during the 2012-2013 program 
year. The community recommendation for fiscal year 2015 is lower than 
the recommendation for fiscal year 2014 as a reflection by the HIV/AIDS 
housing community of current economic challenges.
---------------------------------------------------------------------------
    \1\ HOPWA Performance Profile--National Program, 2012-2013 Program 
Year, Year-to-Date Summary, https://www.onecpd.info/resource-library/
hopwa-performance-profiles/.
---------------------------------------------------------------------------
    As PLWHA live longer and require housing assistance for longer and 
in light of the current economic situation, unmet need is significant. 
NAHC collects anecdotal data on unmet need from its membership and 
supporters. This data continues to document staggering demand--
unacceptable among a population infected with a disease for whom lack 
of housing poses not only a risk to their ability to access and adhere 
to care and treatment but a potential public health threat. For 
example, 915 households are on the current waitlist for housing 
assistance maintained by JRI, Inc., the Boston provider that was 
previously headed by the new director of the Office of National AIDS 
Policy, Douglas Brooks. Need is growing in nearly every region of the 
country, including areas not typically considered epicenters of the 
AIDS epidemic. Providers in Portland, Maine report 99 individuals on 
the waitlist for HOPWA assistance and in El Paso, TX, 111 people are on 
the HOPWA waitlist. These numbers are in spite of the fact that many 
homeless and unstably people do not get on wait lists, knowing that 
housing resources are not available or fearful of the stigma often 
associated with disclosure of their status.
    A core imperative of NAHC's mission is to see housing acknowledged 
and appropriately funded as a critical and cost-effective component of 
HIV prevention and healthcare. It is well understood that effective 
systems to prevent and treat HIV must take into account the social 
determinants of health--conditions of peoples' lives that directly or 
indirectly affect their vulnerability to HIV infection and their 
ability to benefit from HIV treatment.\2\ A strong and consistent body 
of research identifies a person's housing status as one of the most 
powerful social factors influencing HIV risk and health outcomes.\3\
---------------------------------------------------------------------------
    \2\ Dean, H.D. & Fenton, K.A. (2010). Addressing Social 
Determinants of Health in the Prevention and Control of HIV/AIDS, Viral 
Hepatitis, Sexually Transmitted Infections, and Tuberculosis. Public 
Health Rep., 125 (Suppl 4): 1--5.
    \3\ Aidala, A.A, et al. (2012). Housing status and the health of 
people living with HIV/AIDS: A systematic review. Presented at the XIX 
International AIDS Conference, Washington, D.C., July 2012; Leaver C.A. 
et al. (2007). The effects of housing status on health-related outcomes 
in people living with HIV: A systematic review of the literature. AIDS 
and Behavior, 11 (Supp 2): 85-100.
---------------------------------------------------------------------------
    Homeless and unstably housed persons are among those at highest 
risk of acquiring or transmitting HIV infection--with homelessness 
independently associated with increased rates of behaviors that can 
transmit HIV, even after adjusting for other factors that may account 
for increased HIV vulnerability.\4\ For example, a recent study found 
that among young men who have sex with men (MSM)--a group at highest 
risk of acquiring HIV--those who lack stable housing are over three 
times as likely as their housed counterparts to engage in high risk 
sexual behaviors.\5\
---------------------------------------------------------------------------
    \4\ Kidder, D., et al. (2008). Housing status and HIV risk 
behaviors among homeless and housed persons with HIV. JAIDS, 49(4): 
451-455; Aidala, A., et al. (2005). Housing status and HIV risk 
behaviors: Implications for prevention and policy, AIDS and Behavior, 
9(3): 251-265.
    \5\ Halkitis, P.N., et al. (2013). Individual, psychosocial, and 
social correlates of unprotected anal intercourse in a new generation 
of young men who have sex with men in New York City. Am J Public 
Health, 103(5): 889--895.
---------------------------------------------------------------------------
    Homeless and unstably housed people experience stressful 
environments and competing needs that result in poor HIV health 
outcomes at each point in the ``HIV Care Continuum'' or ``treatment 
cascade''--the steps in care from diagnosis of HIV infection to viral 
suppression through effective ARV treatment.\6\ Compared to stably 
housed, those who lack secure housing are at higher risk of HIV 
infection, delayed diagnosis, limited access to care, poor health 
outcomes, and early death.\7\ In fact, researchers from the CDC found 
housing status a stronger predictor of HIV health outcomes than 
individual characteristics such as gender, race, age, substance use, 
mental health issues, and receipt of social services, noting ``this is 
an important finding, as it indicates that housing itself may improve 
the health of PLWHA.''\8\
---------------------------------------------------------------------------
    \6\ Aidala, A., & Sumartojo, E. (2007). Why housing? AIDS & 
Behavior , 11 (6)/Supp 2: S1-S6.
    \7\ Wolitski, R., Kidder, D. & Fenton, F. (2007). HIV, 
homelessness, and public health: Critical Issues and a call for 
increased action. AIDS & Behavior, 11(6)/Supp 2: S167-S171.
    \8\ Kidder, D., et al. (2007a). Health status, healthcare use, 
medication use, and medication adherence in homeless and housed people 
living with HIV/AIDS, American Journal of Public Health, 97(12): 2238-
2245.
---------------------------------------------------------------------------
    Studies consistently show that homelessness and housing instability 
are independently linked with poor HIV health outcomes and failure to 
achieve or sustain viral suppression, after controlling for other 
factors known to impact treatment effectiveness.\9\ One large study of 
homeless men found that only 18 percent of those for whom ARV treatment 
was clinically appropriate reported being on ARV medications, due 
primarily to their inability to meet competing needs for food, hygiene, 
and shelter.\10\
---------------------------------------------------------------------------
    \9\ Aidala, et at. 2012; Leaver, et al. 2007; Kidder et al. 2007a.
    \10\ Riley, E. D., et al. (2012). Social, Structural and Behavioral 
Determinants of Overall Health Status in a Cohort of Homeless and 
Unstably Housed HIV-Infected Men. Plos ONE, 7(4), 1-7. doi:10.1371/
journal.pone.0035207.
---------------------------------------------------------------------------
    Significantly, rigorous research, including two randomized 
controlled trials, shows that housing assistance significantly improves 
health outcomes, including rates of viral suppression, among homeless 
and unstably housed people with HIV. A study of the Chicago Housing for 
Health Project (CHHP) project found that homeless HIV-positive 
participants who received an immediate housing placement were twice as 
likely after twelve months to be virally suppressed as HIV-positive 
study participants randomly assigned to continue to receive the usual 
care available in their community.\11\ Outcomes from the Housing and 
Health (H&H) Study conducted by the CDC and the HUD HOPWA program show 
that participants who continued to experience homelessness during the 
study period were significantly less likely to achieve viral 
suppression than persons who did not report homelessness.\12\ Moreover, 
housing assistance has been found to improve HIV health regardless of 
co-occurring issues.\13\
---------------------------------------------------------------------------
    \11\ Buchanan, D.R., et al. (2009). The Health Impact of Supportive 
Housing for HIV-Positive Homeless Patients: A Randomized Controlled 
Trial. Am J Public Health, 99:6.
    \12\ Wolitski, R. J., et al. (2010). Randomized trial of the 
effects of housing assistance on the health and risk behaviors of 
homeless and unstably housed people living with HIV. AIDS & Behavior, 
14(3), 493-503.
    \13\ Hawk, M. & Davis, D. (2012). The effects of a harm reduction 
housing program on the viral loads of homeless individuals living with 
HIV/AIDS. AIDS Care, 24(5): 577-82.
---------------------------------------------------------------------------
    These studies not only link housing assistance to better health 
outcomes, but also show that public spending on housing is a wise 
investment. Dollars spent on housing generate offsetting savings in 
avoidable healthcare costs by improving healthcare utilization and 
preventing new HIV infections. Receipt of a CHHP housing placement 
reduced overall public spending for HIV-positive participants by an 
average of $6,600 per person per year when compared with HIV-positive 
study participants who remained in usual care in their community.\14\ 
H&H researchers used study outcomes to calculate the cost-utility of 
HOPWA housing assistance as an HIV health intervention, taking into 
account the cost of the housing services, savings from prevented HIV 
transmissions and reductions in avoidable emergency medical care--
finding that housing is a cost-effective HIV health intervention with a 
cost per quality adjusted life year comparable to well-accepted medical 
and public health services.\15\
---------------------------------------------------------------------------
    \14\ Basu, A., et al. (2012). Comparative Cost Analysis of Housing 
and Case Management Program for Chronically Ill Homeless Adults 
Compared to Usual Care. Health Services Research, 47(1 Pt 2): 523-43.
    \15\ Holtgrave, D.R., et al. (2012). Cost-Utility Analysis of the 
Housing and Health Intervention for Homeless and Unstably Housed 
Persons Living with HIV. AIDS & Behavior, 17(5): 1626-1631.
---------------------------------------------------------------------------
    The July 2010 National HIV/AIDS Housing Strategy recognizes that 
housing is healthcare for PLWHA and calls for increased resources and 
for Federal agencies to consider additional efforts to support housing 
assistance and other services to enhance adherence. In addition, in 
July 2012, the Department of Health and Human Services included housing 
as one of seven common core indicators to monitor HHD-funded 
prevention, treatment and care services. Despite these advances, no 
additional resources have been made available for housing.
    NAHC's geographically diverse board has adopted Principles for 
Reauthorization which acknowledge the need for updating the HOPWA 
formula to count living HIV/AIDS and protecting programs from 
destabilization by withdrawal of funds. With the fiscal year 2015 
budget, HUD has, as directed by the National HIV/AIDS Strategy, 
submitted legislation to update the formula to yield an allocation of 
resources more directly tied to the current geographic distribution of 
the epidemic. Until the formula is modernized, we ask that the 
Committee support levels of funding for the program in its current 
formulation that will permit some of those waiting to be served.
    In order to maximize HOPWA's effectiveness, HIV/AIDS housing 
providers rely on a variety of Federal resources to house and serve 
residents. Thus, we urge adequate funding for Homeless Assistance 
Grants, Section 8 Housing Choice Vouchers, public housing, the 811 
program for people with disabilities, and the range of housing programs 
relied upon by people coping with HIV/AIDS.
    We respectfully request the Subcommittee to consider protecting and 
expanding resources in the Housing Opportunities for Persons with AIDS 
Program, a proven, effective HIV prevention and healthcare 
intervention.

    [This statement was submitted by Nancy Bernstine, Executive 
Director, National AIDS Housing Coalition.]
                                 ______
                                 
     Prepared Statement of the National Association of Housing and 
                        Redevelopment Officials
    Thank you for once again providing an opportunity for outside 
witnesses to testify with respect to the fiscal year 2015 HUD budget. 
The National Association of Housing and Redevelopment Officials (NAHRO) 
is one of the Nation's oldest housing advocacy organizations. It 
represents over 3,100 housing and redevelopment authorities nationwide 
who provide decent, safe and affordable housing in neighborhoods of 
quality for well over 2 million families--including senior citizens, 
the disabled and our Nation's veterans.
    We believe the attempt to return to ``regular order'' in the 
Congress must be coupled with a return to fiscal policies that 
recognize our Nation's core values--notably our decades-long commitment 
to a decent home and suitable living environment for all Americans. 
NAHRO's IMPACT 2014: Plan for Action provides a roadmap to achieving 
this fundamental public policy imperative. It is based on the following 
core objectives: preserve and revitalize the public housing inventory; 
reform, strengthen and adequately fund Section 8 programs; fully fund 
community and economic development programs; enact small housing 
authority reforms; expand the supply of affordable housing; fully fund 
homeless assistance grant programs; and improve the regulatory 
environment for housing and community development (HCD) agencies.
    The program-specific recommendations below, if implemented, will 
enable us to accomplish these core objectives, which are fundamental to 
our ability to assist those who seek a decent, safe, and affordable 
place to call home.
                    program-specific recommendations
    We hope this Subcommittee will seriously consider the following 
recommendations. A chart containing NAHRO's full fiscal year 2015 
funding recommendations is on page 4.
Public and Indian Housing
    NAHRO's fiscal year 2015 funding recommendations for HUD's Public 
and Indian Housing programs were developed jointly with the Public 
Housing Authorities Directors Association (PHADA).
    Public Housing Operating Fund.--NAHRO and PHADA recommend $5.315 
billion for the Operating Fund for fiscal year 2015, equal to 100 
percent of HUD's estimate of PHAs' operating subsidy formula 
eligibility.
    Public Housing Capital Fund.--In light of the estimated $3.4 
billion in annually accruing capital needs identified in the 2010 Abt 
Capital Needs Assessment, NAHRO and PHADA recommend an appropriation of 
$5.000 billion for the Capital Fund, to be distributed by formula, for 
fiscal year 2015. This amount would allow PHAs to cover their newly 
accruing needs as well as make critical repairs and improvements.
    NAHRO and PHADA strongly object to the Administration's proposal to 
eliminate funding for the Resident Opportunities Self-Sufficiency 
(ROSS) program and recommend $45 million for the ROSS program for 
fiscal year 2015, a level equal to the fiscal year 2014 appropriation. 
Through this important program, PHAs continue to link public housing 
residents with supportive services, resident empowerment activities, 
and assistance in becoming economically self-sufficient.
    NAHRO and PHADA also recommend $20 million in emergency capital 
needs funding to address needs resulting from non-Presidentially 
declared disasters and emergencies, including safety and security needs 
related to crime and drug-related activity, a currently eligible use of 
funds that the Administration has proposed eliminating.
    Choice Neighborhoods.--NAHRO and PHADA support $120 million for the 
Choice Neighborhoods Initiative for fiscal year 2015, and recommend 
that two-thirds of the funds be reserved for applications in which a 
PHA is the lead applicant or a co-applicant. Large capital grants 
through programs like HOPE VI or Choice Neighborhoods are among the 
most effective tools available to PHAs to address the needs of severely 
distressed public housing developments by attracting private capital 
and transforming communities into thriving, mixed-income neighborhoods 
with reduced crime and increased opportunities for residents.
    Family Self-Sufficiency (FSS) Program.--NAHRO and PHADA recommend 
$75 million for the FSS Program for fiscal year 2015. This funding 
level is needed to maintain funding for all existing program 
coordinators in the newly consolidated Public Housing and Section 8 FSS 
program, but is not sufficient to expand the program to include Section 
8 Project-Based Rental Assistance properties as proposed in the 
Administration's budget.
    Housing Choice Voucher (HCV) Renewals--Housing Assistance 
Payments.-- NAHRO and PHADA recommend a total of $18.457 billion for 
Housing Assistance Payments (HAP) for fiscal year 2015 in order to 
ensure the renewal of assistance for all households served in 2014. 
This amount would be sufficient to restore leasing of the 42,000 
vouchers that were lost in 2013. NAHRO and PHADA believe that this 
recommendation appropriately accounts for savings that will result from 
legislative reforms involving income targeting and utility allowances.
    NAHRO and PHADA also support the President's fiscal year 2015 
proposal to combine direct appropriations with offsets of PHAs' excess 
HAP Reserves exceeding 1 month of annual HAP eligibility, if needed to 
prevent termination of rental assistance or to avoid or reduce a 
downward proration for HAP renewals. However, this recommendation does 
not assume an offset.
    Tenant Protection Vouchers.--NAHRO and PHADA support sufficient 
funding to provide all eligible households with a tenant protection 
voucher for fiscal year 2015.
    HUD-VA Supportive Housing (HUD-VASH).--NAHRO and PHADA support the 
President's request for $75 million for incremental HUD-VASH vouchers 
for fiscal year 2015. Incremental HUD-VASH vouchers are needed to help 
meet the Interagency Council on Homelessness's goal to end veteran 
homelessness.
    Administrative Fees.--NAHRO and PHADA recommend a total of $2.134 
billion for administrative fees for fiscal year 2015. According to the 
Administration's estimates, this figure would be sufficient to fund all 
PHAs at 100 percent of their eligibility based on the fee rates in 
effect immediately prior to the enactment of the Quality Housing and 
Work Responsibility Act of 1998 (QHWRA). This recommendation includes 
up to $50 million in additional administrative fee funding to support 
PHAs' administration of tenant protection vouchers and other 
incremental vouchers.
Office of Housing
    Project-Based Section 8 Multi-Family Rental Assistance.--NAHRO 
supports full, 12-month renewal funding for Section 8 Project-Based 
Rental Assistance (PBRA) contracts and full funding for the Section 8 
Performance-Based Contract Administrators (PBCA) initiative. 
Furthermore, NAHRO continues to seek a level playing field for all 
parties competing for PBCA contracts, and asks that the Congress deny 
the Department's request to circumvent the competitive procurement 
requirements currently required by law.
Community Planning and Development
    Community Development Block Grant (CDBG) Program.--In spite of the 
program's proven track record, CDBG formula funding has declined by 
over 30 percent from fiscal year 2004 to fiscal year 2014, even before 
adjusting for inflation. NAHRO and its partners in the CDBG Coalition 
recommend $3.3 billion for the CDBG program for fiscal year 2015, which 
would restore funding to the fiscal year 2011 enacted level.
    Section 108 Community Development Loan Guarantees.--NAHRO supports 
the President's proposal to increase Section 108 loan guarantee 
authority to $500 million for fiscal year 2015. NAHRO does not support 
the Administration's proposal to eliminate direct appropriations for 
the Section 108 credit subsidy and shift the program to a fee-based 
structure. NAHRO recommends combining a direct appropriation of $6 
million for Section 108 credit subsidies (the funding level required to 
fully subsidize approximately $250 million in loan guarantee authority) 
with the authority for HUD to collect fees from additional borrowers in 
order to meet any remaining demand for loan guarantees up to the full 
$500 million.
    Home Investment Partnerships (HOME) Program.--Funding for the HOME 
formula allocation to States and local Participating Jurisdictions has 
declined by over 45 percent since fiscal year 2010. NAHRO and its 
partners in the HOME Coalition recommend restoring the program to the 
fiscal year 2011 enacted level by providing $1.6 billion for HOME 
formula grants for fiscal year 2015.
    McKinney-Vento Homeless Assistance Grants.--NAHRO, along with other 
national stakeholders including the National Alliance to End 
Homelessness, supports the President's request for $2.406 billion for 
Homeless Assistance Grants for fiscal year 2015. This funding is 
critically important as HUD continues to implement McKinney-Vento 
programmatic reforms resulting from the enactment of the Homeless 
Emergency Assistance and Rapid Transition to Housing (HEARTH) Act.
    Housing Opportunities for Persons with AIDS (HOPWA).--NAHRO 
recommends $350 million for HOPWA for fiscal year 2015, the funding 
level requested by the National AIDS Housing Coalition.
    Housing Trust Fund.--NAHRO continues to support the President's 
proposal for $1 billion in mandatory funding for the Housing Trust Fund 
enacted through the Housing and Economic Recovery Act of 2008. The 
funding would be identified outside of the appropriations process 
through an as yet unidentified, budget-neutral offset. NAHRO urges the 
Administration to develop and propose a plan for capitalizing the 
Housing Trust Fund and favors statutorily mandated contributions to the 
fund by the Government Sponsored Enterprises or their successor.
                     proposed cost-saving measures
    House and Senate appropriators have taken steps in to include 
language designed to reduce program costs in their bills, reducing 
administrative burdens and increasing operational efficiency in the 
execution of HUD-established program requirements.
    In fiscal year 2015 NAHRO would support:
  --The inclusion of language providing for full fungibility of 
        operating and capital funds for housing authorities regardless 
        of size. Additionally, NAHRO has developed a proposal to allow 
        housing authorities to maintain a replacement reserve to 
        address capital needs; and
  --The inclusion of language permitting housing authorities to conduct 
        recertification of residents on fixed incomes on a triennial 
        basis.
    Finally, NAHRO members have expressed serious concerns about the 
language contained in the fiscal year 2014 omnibus which requires 
housing authorities to establish flat rents no lower than 80 percent of 
FMR. This provision has raised serious concerns regarding ability of 
certain residents to afford expected rent increases, and should be 
amended to prevent the dislocation of current residents.
    Thank you again for the opportunity to testify. We look forward to 
discussing our funding recommendations with this Subcommittee in 
greater detail.
                     funding recommendations chart
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
Prepared Statement of the National Association of Local Housing Finance 
                                Agencies
    Dear Chairwoman Murray and Ranking Member Collins: The undersigned 
organizations of local elected officials and local affordable housing 
and community development and economic development professionals and 
non-profit organizations write to you concerning fiscal year 2015 
appropriations for the Community Development Block and HOME Investment 
Partnerships programs. Specifically, we wish to urge the Transportation 
and Housing and Urban Development Appropriations Subcommittee to reject 
recommendations contained within the Administration's fiscal year 2015 
budget recommending ``reforms'' of these programs.
    Like other national organizations we urge you to support $3.3 
billion in formula funding for the Community Development Block Grant 
(CDBG) Program. We also recommend that HOME be funded at $1.2 billion. 
We specifically oppose the Obama Administration's proposals to reduce 
CDBG formula grant funding to $2.8 billion and reduce HOME formula 
grants to $950 million.
    We want to advise that we do not support the establishment of a 
minimum funding threshold of approximately $350,000 for CDBG 
entitlement grants, which was recommended in the President's fiscal 
year 2014 and 2015 budgets (we are still awaiting the details). This 
would adversely affect an estimated 340 smaller communities who are 
currently implementing programs that are responsive to their needs. 
This would force them to compete for limited State funds without any 
positive benefit to either them or the State. We also oppose the 
Administration's proposal to repeal the grandfathering provisions in 
CDBG for metropolitan cities and urban counties. Again, this would 
seriously disrupt on-going programs.
    Based on fiscal year 2014 allocations in Washington State, the City 
of East Wenatchee ($110,141), the City of Longview ($310,150), the City 
of Mount Vernon ($273,059), the City of Olympia ($342,375), the City of 
Richland ($221,943), the City of Shoreline ($259,298) and the City of 
Wenatchee ($196,821) would be denied direct funding because their 
allocations were below the $350,000 threshold. There are no such cities 
in Maine.
    CDBG provides vital funding and flexibility to address local needs 
in the areas of community and economic development, housing, 
infrastructure and vital public services. Over 1,200 communities rely 
on CDBG as a direct source of annual funding. Moreover, each year, an 
estimated 7,250 local governments nationally have access to CDBG funds 
reaching rural, urban, and suburban areas. CDBG helps create jobs 
through the expansion and retention of businesses.
    Since fiscal year 2010, funding for CDBG has been cut by over $1 
billion, yet the need for these important resources has continued to 
grow. While we understand the need to address the Federal budget 
deficit, we also understand the value of the local investments made by 
CDBG. We are deeply concerned that these investments are in jeopardy 
due to the Obama Administration's fiscal year 2015 proposed budget cuts 
to CDBG and HOME.
    In this economy, State and local governments and their nonprofit 
partners need these programs more than ever to provide a lifeline and 
support to seniors, victims of domestic violence, the homeless, the 
disabled, youth, and our veterans, to name a few. To this day, both 
programs remain the principal source of resources for localities to use 
in devising flexible solutions to provide services to the most 
vulnerable and to prevent physical, economic, and social deterioration 
in lower-income neighborhoods and communities throughout the Nation.
    CDBG and HOME make their way into the local economy through an 
extensive network of nonprofit organizations and local contractors and 
businesses and remains a lifeline for families and communities. Since 
fiscal year 2005, the U.S. Department of Housing and Urban Development 
(HUD) has collected accomplishment data for the CDBG program. Based on 
the data that grantees have reported to HUD over the past 9 years 
(fiscal year 2005-fiscal year 2013), CDBG has created jobs, assisted 
businesses, leveraged additional funding, and provided critical 
services, affordable housing, and public improvements. It also reaches 
communities across the country.
                               cdbg facts
    Nearly 1,200 State and local governments receive CDBG funds 
directly and over 7,200 communities--rural, suburban, and urban--have 
access to the funds through their States.
    CDBG is a jobs generator. Between fiscal year 2005-fiscal year 
2013, CDBG created/retained 330,546 jobs.
    CDBG assists businesses. Since fiscal year 2007, CDBG has provided 
direct assistance to 220,695 businesses.
    CDBG leverages other funds. For every $1.00 of CDBG investment, 
another $4.05 in private and public dollars is leveraged.
    CDBG provides safe, decent, affordable housing. Between fiscal year 
2005-fiscal year 2013, CDBG assisted over one million low- and 
moderate-income homeowners rehabilitate their homes, provided down 
payment and closing cost assistance to qualified home buyers, and 
assisted homeowners with lead-based paint abatement, among other 
activities.
    CDBG provides crucial public improvements to communities. Between 
fiscal year 2005-fiscal year 2013, CDBG public improvements benefitted 
over 33 million low- and moderate-income people nationwide. These 
public improvements included senior centers, child care centers, group 
homes for persons with disabilities, shelters for victims of domestic 
violence and homeless veterans, health clinics providing vaccinations 
and dental care to low-income children, sanitary water and sewer 
systems, safe streets, and improved drainage systems, among others.
    CDBG provides needed public services. Between fiscal year 2005-
fiscal year 2013, CDBG provided public services to over 105 million 
low- and moderate-income households. These services included employment 
training, meals and other services to the elderly, services to help 
abused and neglected children, assistance to local food banks, and many 
other services.
    Based on program and grantee information, the HOME program has been 
a catalyst in developing and preserving affordable housing for very-low 
and extremely-low income households. It also generates jobs, leverages 
additional funding, and reaches communities across the country.
                               home facts
    Over 600 State and local governments receive HOME funds.
    HOME creates affordable housing. Since 1992, the program has 
created over one million units of decent, safe, affordable housing.
    HOME assists extremely-low income populations. More than 50 percent 
of HOME funds have been used to assist very-low income and extremely 
low-income households.
    HOME leverages other funds. For every $1.00 dollar of investment, 
another $4.00 in public and private resources is leveraged.
    HOME reaches communities across the country; urban, rural, and 
suburban.
    HOME creates jobs; every $1 million in HOME funds creates or 
preserves approximately 18 jobs.
    In closing, the CDBG and HOME programs support local economies by 
providing resources for the needy, local job creation, housing 
assistance, and opportunities for growth. Both programs have suffered 
major cuts in funding in recent years and continued cuts would have a 
significant impact on the loss of jobs, loss of assistance to low- and 
moderate-income people, and would particularly impact vulnerable 
populations such as the homeless, children, and the elderly. We urge 
you to prioritize a commitment for funding for both programs in the 
fiscal year 2015 Senate THUD spending bill and to provide at least $3.3 
billion for CDBG formula grants and at least $1.2 billion for HOME 
formula grants. We note that you have received a letter from 39 
Senators urging you to fund CDBG at $3.3 billion and one from 34 
Senators urging you to fund HOME at $1.2 billion.
    Thank you again for your past leadership and support of these 
critical programs.

    [This statement was submitted by John C. Murphy, Executive 
Director, National Association of Local Housing Finance Agencies for 
itself and the other members of the CDBG Coalition including U.S. 
Conference of Mayors, National Association of Counties, National League 
of Cities, National Association for County Community and Economic 
Development, National Community Development Association, American 
Planning Association, National Association of Development 
Organizations, Council of State Community Development Agencies, 
National Association of Housing and Redevelopment Officials, National 
Urban League, Habitat for Humanity International, National Rural 
Housing Coalition, Local Initiatives Support Corporation, YWCA U.S.A., 
International Economic Development Council and Rebuilding Together.]
                                 ______
                                 
 Prepared Statement of the National Association of Railroad Passengers
    Thank you for the opportunity to submit this statement. Thank you 
also for your work to insure the continuation of intercity passenger 
train service.
    We strongly support these Administration's budget requests:
  --$2,450 million for current intercity passenger train service
    --$550 million for the Northeast Corridor (NEC)
      This produces a total of $840 million in NEC capital investment 
            when combined with the NEC's $290 million operating surplus 
            estimated by Amtrak.
    --For State-supported services, $225 million for equipment 
            replacement and other capital expenses (including projected 
            increases required by existing law)
    --$850 million for long-distance routes
    --$475 million for national assets, legacy debt, and Amtrak 
            positive train control
      This includes the $83 million which Amtrak estimates to be costs 
            of the State-supported trains which have not been shifted 
            to the States.
    --$350 million to bring stations into compliance with the Americans 
            with Disabilities Act
  --$2,300 million for intercity passenger train improvements and 
        commuter railroad positive train control
    --$825 million for a time-limited program (``phase out by fiscal 
            year 2018'') ``to implement positive train control [PTC] 
            systems on commuter railroads''--this comprises 36 percent 
            of the $2.3 billion ``improvements'' total.
    --$1,300 million to develop ``high performance passenger rail 
            networks through . . . substantial improvements to existing 
            corridors, mitigation of passenger train congestion at 
            critical chokepoints'' as well as ``construction of new 
            corridors.''
    --$125 million to reduce impact of rail in local communities 
            ``through rail line relocation projects, grade crossing 
            enhancements, and investments in short line railroad 
            infrastructure''
    --$75 million ``to plan for future investments and to develop the 
            workforce and technology necessary for advancing America's 
            rail industry.''
  --$185 million for safety and operations
  --$35 million for safety-related research and development work
  --$1,250 million for TIGER grants
  --$17,649.4 million for the Federal Transit Administration
    The above represents $3,925 million for intercity passenger trains, 
ignoring benefits to those trains from the last four bullets. That is 
the result of adding $2,450 million and $2,300 million and subtracting 
$825 million for commuter rail PTC.
    This represents a meaningful increase from the $1.39 billion 
enacted for Amtrak for fiscal year 2014, but falls far short of the $7 
to $9 billion a year recommended by the National Surface Transportation 
Policy & Revenue Study Commission that President George W. Bush 
appointed.
    The Commission's Final Report, released December, 2007, is at 
http://transportationfortomorrow.com/final_report/index.htm. The report 
lists $7 billion in annual investment through 2020, $9 billion through 
2035, and $8 billion through 2055, as the ``average annual capital 
investment [for Passenger Rail] . . . estimated to be adequate to 
improve key condition and performance measures . . . in the future 
relative to their current levels'' (pages five through seven of 
``Volume I: Recommendations'').
                  demand for trains continues to grow
    Fiscal 2013 saw Amtrak set its 10th ridership record in 11 years. 
``All long distance routes combined had the best ridership in 20 years 
with 4.8 million passengers . . . Amtrak's State-supported corridor 
services grew to a new record of 15.4 million passengers.''
    Consistent with that, Amtrak negotiated successfully with all 
affected States to secure continued operation of State-supported trains 
in Fiscal 2014. Section 209 of PRIIA required increased State 
payments--or the beginning of State payments--in order to continue 
routes that are 750 miles or shorter. Some believed this would lead to 
loss of service, but so far it has not.
    It was by no means a certainty that all the trains could be saved. 
That they were, even where States had no previous history of funding 
intercity passenger trains, reflects the public's strong support for 
trains. That support also is reflected, of course, in ridership which 
continues to grow.
     generational change increases demand for public transportation
    USA Today reported Oct. 1, 2013 that young people are driving 
less--one of many such reports in recent years. ``While all Americans 
are driving less since the recession, the average person ages 16-34 
drove 23 percent less in 2009 than in 2001, the sharpest reduction for 
any age group.
     ``And some of the Nation's youths--those known as Millennials, 
born between 1982 and 2003--approach travel differently than their 
parents do. They are ``multimodal,'' meaning they choose the best mode 
of transportation, such as driving, transit, biking or walking, based 
on the trip they are planning. They consider public transportation the 
best option for digital socializing and one of the most likely ways to 
connect with the communities they live in. They also say that transit 
allows them to work while they travel''.''
                       keeping the trains running
    A robust capital program is essential to maintain existing service 
and needed expansion. Today, the average age of Amtrak's rolling stock 
is older than it was when Amtrak began operations May 1, 1971, with 
``hand-me-down'' equipment from the private railroads. Most of these 
so-called ``Heritage'' cars were built in the 1950s and so less than 20 
years old in 1971. Indeed, some Heritage cars were built in the 1960s--
many Santa Fe High Level cars date from 1964 and so were only 7 years 
old at Amtrak's inception; the Metroliner cars were 3 years old.
    The mainstay of Amtrak's short- and long-distance fleets now are 
the first Amfleet and Superliner cars which began entering service in 
1974 and 1981, respectively, and so are about 35 years old. Amtrak's 
fleet plan reflects a very conservative view of equipment needs going 
forward, and the absolute minimum that Congress should consider 
funding.
                           energy efficiency
    The Department of Energy's newest Transportation Energy Data Book, 
released in July, 2013, and based on 2011 data, indicates that Amtrak 
on average is 34 percent more energy efficient per passenger-mile than 
automobiles and 20 percent more than commercial aviation. Comparing 
DOE's energy consumption per vehicle-mile for light trucks (those with 
two axles and four tires) with the Amtrak per-passenger-mile figure 
indicates Amtrak is 68 percent more energy efficient, but this 
percentage should be adjusted downward to the extent that light truck 
average occupancy exceeds one person.
              the national network (long-distance) trains
    The following from Amtrak's latest General and Legislative Annual 
Report from President & CEO Joseph Boardman is noteworthy: ``Congress 
stated in Section 228 of PRIIA that the operation of a national system 
was a `vital and necessary part of our national transportation system 
and economy,' and that is a sentiment with which I strongly agree.'' We 
strongly agree!
    One use of the national network trains which has come to our 
attention is for transporting patients from rural hospitals to major 
urban medical centers. This involves patients who need specialized 
treatment or procedures not available in the smaller facilities. 
Overall, based on Amtrak's 2010 ridership profile research, 51 percent 
of trips on these trains are to visit friends and family, 29 percent 
vacation/leisure, 11 percent personal business/school/shopping, and 9 
percent are business.
    In addition, a sizable number of people have medical conditions--
either permanent or temporary--that make it inadvisable or impossible 
for them to fly, and/or vastly more convenient to use the train. This 
includes people who must travel with oxygen or other medical machines.
    As to the form of this year's Amtrak grant request, it must be 
remembered that NEC operational `profits' are only sustainable with the 
NEC getting the majority of Amtrak's capital investment and if the 
absolute dollar value of that investment continues to increase. As 
Boardman's request notes, ``Infrastructure deterioration and changes in 
business patterns have reached a point where something has to change. . 
. . The likelihood of major infrastructure failure has grown. Capital 
support levels have fallen. . . . Current investment levels leave us 
vulnerable to a bigger, costlier, and far more damaging failure than 
anything we have seen.''
    Another way of stating the relationship between the NEC and the 
rest of Amtrak is that there is a balance which the NEC gets 
substantial capital while the national network gets a sizable operating 
grant. So it is not accurate to characterize Amtrak's current grant 
request as having the NEC ``secede financially from the rest of the 
federally funded rail system,'' as one news report put it. In addition:
  --The national network shares overhead facilities with NEC and State-
        supported routes. If the national network disappeared, the 
        significant overhead costs would not disappear but would be 
        shifted to surviving services, increasing the financial burden 
        on States, many of which have recently sustained a big increase 
        in Amtrak-related costs, and NEC operating profits would 
        decline.
  --Many State-supported routes and the NEC share revenues with 
        national network trains--connecting revenues which obviously 
        would be lost if the national network disappeared.
  --The NEC achieves its good operating performance today because of 
        significant Federal capital investment over many years, 
        including the New Haven-Boston electrification.
    On a related matter, even with the application of PRIIA Section 
209, Amtrak is estimating an $83 million operating subsidy for the 
State-supported routes, that is, routes outside Boston-Washington which 
are shorter than 750 miles.
                         positive train control
    There is general agreement that the statutory deadline of December 
15, 2015, for making PTC operational cannot be met. With a rail 
reauthorization appearing unlikely this year, it may fall to the 
appropriations process to address the deadline problem. NARP believes 
that any deadline extension should include a requirement that PTC be 
able to prevent low-speed, rear-end collisions. In the past few years, 
there have been fatal accidents of this type which PTC as currently 
being installed would not have prevented. The PTC installation process 
has largely been stopped by the Federal Communications Commission as of 
last May. The FCC interprets the law to require an exhaustive clearance 
process relating to historic preservation for the installation of each 
individual pole required for PTC, even though most are located on 
railroad property. It is important that this issue not continue to 
delay such an important safety initiative.

    [This statement was submitted by Lawrence E. Scott, Acting 
President & CEO, National Association of Railroad Passengers.]
                                 ______
                                 
    Prepared Statement of the National Congress of American Indians
    On behalf of the National Congress of American Indians (NCAI), 
thank you for the opportunity to provide testimony for the record on 
transportation and housing for Indian Country. NCAI is the oldest and 
largest national organization in the United States and is steadfastly 
dedicated to protecting the rights of tribal governments to achieve 
self-determination and self-sufficiency. The Federal appropriations for 
Indian programs within the U.S. Department of Transportation and U.S. 
Department of Housing and Urban Development are important for tribes. 
Tribal infrastructure programs are critical to ensuring that tribal 
governments can provide for the economic and social well-being of their 
tribal members and members of the surrounding communities. NCAI looks 
forward to working with members of this Subcommittee as you consider 
fiscal year 2015 funding.
                         tribal transportation
    Surface transportation in Indian Country involves thousands of 
miles of roads, bridges, and highways. According to the latest National 
Tribal Transportation Facility Inventory (NTTFI),\1\ there are 
approximately 159,000 miles of roads and trails in Indian Country owned 
and maintained by the Bureau of Indian Affairs, Tribes, and States and 
Counties. Of those, Indian tribes own and maintain 13,650 miles of 
roads and trails, of which only 1,000 (or 7.3 percent) are paved and 
12,650 miles are gravel, earth or primitive. However, these miles of 
roadways are still among the most underdeveloped and unsafe road 
networks in the Nation, even though such routes are the primary means 
of access to American Indian and Alaska Native communities by tribal 
and non-Indian residents and visitors alike. Of the 27,500 miles owned 
and maintained by the BIA, only 7,100 miles are paved and 20,400 miles 
are graveled, earth or primitive.
---------------------------------------------------------------------------
    \1\ 23USC 202(b)(1).
---------------------------------------------------------------------------
    These roads are the primary means of travel for Indian people 
across the Nation, but they remain the most underdeveloped road system 
that exists in the United States. Safety issues for Indian tribes are 
important because many tribal communities are vulnerable by unsafe and 
often inaccessible roads, bridges, and ferries. Indian Country suffers 
injury and death driving and walking along reservation roadways at 
rates far above the national average. According to the Federal Highway 
Administration, ``American Indians have the highest rates of pedestrian 
injury and death per capita of any racial or ethnic group in the United 
States.'' Over the past 25 years, 5.962 fatal motor vehicle crashes 
occurred on Indian reservation roads, with 7,093 lives lost.
    While the number of fatal crashes in the Nation declined 2.2 
percent during this time period, the number of fatal motor vehicle 
crashes per year on Indian reservations increased 52.5 percent. Adult 
motor vehicle-related death rates for American Indians/Alaska Natives 
are more than twice than that of the general population. These 
statistics are shocking and cry out for major changes in Federal 
transportation safety programs serving Indian Country.
    The current transportation authorization, Moving Ahead for Progress 
in the 21st Century (MAP-21) restructured the transportation programs 
for Indian tribal governments by establishing and consolidating the 
Tribal Transportation Program (TTP) (formerly the Indian Reservation 
Programs), eliminating the separately funded IRR Bridge Program and 
High Priority Project Program (IRRHPP) and creating discretionary 
grants within the TTP for tribal bridges and highway safety programs 
and projects. MAP-21 changed the regulatory funding formula for 
allocating TTP ``tribal shares'' for transportation construction that 
the BIA and FHWA must phase in over a number of years. MAP-21 also 
revamped the Section 5311 (c) Public Transportation on Indian 
Reservations Program (Tribal Transit Program) administered by the 
Federal Transit Administration, by establishing a statutory formula for 
allocating transit funds among eligible Indian tribes, and increased 
funding.
         department of transportation fiscal year 2015 request
    For fiscal year 2015, the U.S. Department of Transportation (DOT) 
requested the following for tribal transportation related programs:
  --Tribal Transportation Program (TTP).--NCAI supports the increase of 
        $507 million for TTP to improve repair and construct existing 
        infrastructure.
  --Public Transportation on Indian Reservations (5311(c)).--NCAI 
        supports the increase of $35 million for the Tribal Transit 
        Program.
  --Highway Traffic Safety Grant-Section 402-Indian Highway Safety 
        Program.--For fiscal year 2015 Budget request for this program 
        is $4.8 million. The Highway Traffic Safety Grant-Section 402-
        Indian Highway Safety Program is administered by BIA. NCAI 
        supports an increase for this program because the purpose of 
        Section 402 is to support highway safety plans to help reduce 
        fatalities and injuries on highways. According to the BIA 
        Indian Highway Safety Program (25 CRF PART 181), this program 
        is a competitive grant program, and is meant to assist tribes 
        with their proposed Highway Safety Projects. The plans aim to 
        reduce traffic crashes, reduce impaired driving crashes, 
        increase occupant protection education, provide Emergency 
        Medical Service training, and increase police traffic services.
  --Tribal Bridge Program.--NCAI supports the increase to the Tribal 
        Bridge set-aside from 2 percent to 4 percent from current 
        levels to address the backlog of needs for tribal bridges as 
        many are deficient and in need of maintenance.
  --High Priority Projects Program.--DOT's fiscal year 2015 Budget 
        Request establishes a 7 percent set-aside from the TTP for the 
        Tribal High Priority Projects Program. As mentioned, MAP-21 
        made several programmatic changes to tribal transportation 
        programs. One change was removing funding of the Tribal High 
        Priority Projects Program from the Highway Trust Fund to the 
        U.S. Treasury General Funds with $30 million in authorized 
        funding. Since the enactment of MAP-21 in fiscal year 2013 and 
        fiscal year 2014, this program has not received any 
        appropriations. This program is crucial because it provides 
        funding to tribes whose TTP annual funding allocation is 
        inadequate to complete their highest priority projects, or for 
        tribes that are impacted by emergency or disaster incidents 
        that leave tribal transportation facilities unusable or 
        inaccessible. NCAI supports the restoration of this essential 
        program assist tribes to construct and rehabilitate their most 
        pressing infrastructure needs.
  --Tribal Planning Set-Aside.--DOT's fiscal year 2015 Budget Request 
        increases the tribal planning set-aside from 2 percent to 3 
        percent in order to further data collection requirements. Data 
        collection for infrastructure planning and development is 
        inadequate for tribes and this increase will assist tribes to 
        be able to abide by the requirements of MAP-21.
BIA Road Maintenance:
    Although the Bureau of Indian Affairs (BIA) is not under the 
jurisdiction of this subcommittee, one of the important transportation 
programs for tribes is the BIA Road Maintenance program. The BIA 
implements, funds (which is appropriated through the Interior, 
Environment and Related Agencies appropriations bill), and is 
responsible for maintaining 29,500 miles of roads in Indian Country. 
The BIA Road Maintenance program is funded at approximately $25 million 
and its funding levels have remained stagnant for several fiscal year 
cycles, compromising highway safety in Indian Country, dramatically 
shortening the useful life of the BIA System and tribal roads and 
bridges, and undermining tribal economic development initiatives in 
Indian Country. For fiscal year 2013, deferred maintenance for BIA 
roads is over $280 million. These staggering amounts of deferred 
maintenance on BIA roads are transportation and maintenance are costs 
that fall directly on tribes--Indian Country cannot afford to divert 
their scarce resources to transportation infrastructure that is BIA's 
responsibility. NCAI has expressed our concern in testimony submitted 
to the House Subcommittee Interior, Environment, and Related Agencies.
                                housing
    Housing is a core necessity for tribal communities. While tribes 
have made great strides toward improving housing conditions in their 
communities through the Native American Housing Assistance and Self- 
Determination Act (NAHASDA), the need for adequate, affordable housing 
for low income Indian people persists. Native Americans still face some 
of the worst housing and living conditions in the United States. Nearly 
30 percent of homes in Indian Country rely on wood for heating; up to 
18 percent are without phone service in some areas; and substandard 
housing conditions continue to prevail. According to the American 
Community Survey 2006-2010 data, Indian homes frequently lack utilities 
and infrastructure, with approximately 8.6 percent lacking complete 
plumbing facilities; 7.5 percent lacking kitchen facilities; and 18.9 
percent lacking telephone service.
    Since the enactment of NAHASDA in 1996, tribal housing programs are 
moving into a new era for housing and community development--and using 
sustainable building practices and leveraging their NAHASDA and other 
Federal funding. Today there are close to 500 Tribally Designated 
Housing Entities (TDHEs) in Indian Country. The NAHASDA effectively 
replaced the various Indian housing programs under the 1937 Housing Act 
and consolidated Federal housing funds through direct block grants to 
the tribes and their TDHEs. It also authorized tribes to design and 
implement tribal housing and other community development infrastructure 
programs. The NAHASDA has resulted in tens of thousands of more housing 
units being constructed, as well as increased tribal capacity to 
address related infrastructure and economic development challenges.
    The NAHASDA authorizes several programs and activities that are in 
need of additional funding, including: the Indian Housing Block Grant; 
Indian Community Development Block Grant; Sections 184 and 184A 
Guarantee Loan Program; Title VI Guarantee Loan Program; and NAHASDA's 
Training and Technical Assistance Funding.
      department of housing and urban development-fiscal year 2015
The President's Fiscal Year 2015 Budget Request for the Department of 
        Housing and Urban Development (HUD):
    Indian Housing Block Grant (IHBG).--NCAI recommends that the IHBG 
be funded at not less than $675 million. IHBG funding is important for 
housing development, construction, infrastructure, maintenance, and 
repair in Native communities. These funds also assist tribal 
governments and TDHEs to leverage other funds, such as low-income 
housing tax credits.
    Indian Housing Loan Guarantee Fund (Section 184).--NCAI supports 
the increase of HUD's Budget Request for fiscal year 2015 of $8 
million. Section 184 program is important for tribal members to become 
homeowners on tribal lands.
    Indian Community Development Block Grant (ICDBG).--NCAI recommends 
that ICDBG be funded at not less than $70 million. This funding 
provides much needed resources to improve the overall economic and 
community development groundwork for tribal communities.
    Training and Technical Assistance.--NCAI recommends that this 
program be funded at not less than $4 million. Building tribal capacity 
is essential for tribes to enhance their housing and community 
development projects.
                               conclusion
    NCAI is committed to improving and strengthening tribal governments 
and their communities by ensuring Indian tribes receive adequate 
Federal infrastructure funding which is essential for our communities 
to prosper.
                                 ______
                                 
  Prepared Statement of the National Council of State Housing Agencies
    Thank you for the opportunity to provide testimony on behalf of our 
Housing Finance Agency (HFA) members regarding fiscal year 2015 
appropriations for HUD programs. As you consider your fiscal year 2015 
HUD appropriations bill, we urge you to restore HOME formula grant 
funding to $1.6 billion, equal to its fiscal year 2011 funding level, 
and provide Section 8 funding adequate to renew all expiring project-
based contracts for a full year, fully fund all authorized Housing 
Choice Vouchers (vouchers), provide new incremental vouchers in fiscal 
year 2015, allocate new flexible rental assistance to State HFAs, and 
ensure that successful HFA project-based contract and voucher 
administrators continue in and are adequately compensated for these 
roles. We also ask you to provide authority for Ginnie Mae to 
securitize FHA-HFA Multifamily Risk-Sharing program loans.
    The National Council of State Housing Agencies' (NCSHA) members are 
the HFAs of the 50 States, the District of Columbia, New York City, 
Puerto Rico, and the U.S. Virgin Islands. HFAs administer a wide range 
of affordable housing and community development programs, including 
HOME, Section 8, homelessness assistance, down payment assistance, 
State housing trust funds, tax-exempt Housing Bonds, and the Low Income 
Housing Tax Credit (Housing Credit). HFAs effectively employ these 
resources to advance their common public-purpose mission of providing 
affordable housing to the people of their jurisdictions who need it.
                  home investment partnerships program
    HOME program funding is vital to the production and provision of 
housing affordable to low-income families and has a long record of 
tremendous success in doing so. Yet, HOME has received devastating cuts 
in recent years. HOME funding has been cut almost in half since fiscal 
year 2010. Just since fiscal year 2011, HOME appropriations have been 
cut by 38 percent--from $1.6 billion to $1 billion in fiscal year 2014, 
a historically low funding level. We appeal to you to spare the HOME 
program from further cuts and to fund HOME at $1.6 billion, equal to 
its fiscal year 2011 funding level. The need for HOME funding vastly 
exceeds the amount available.
    We also request that the Subcommittee resist further reducing the 
amount of this flexible funding source going directly to States and 
localities by not including any set-asides within the HOME program 
account.
    In these tight budgetary times, the HOME formula grant is one of 
the best housing investments Congress can make. HOME's flexibility 
allows States and localities to determine how to put limited HOME funds 
to their best use. HFAs use HOME to serve the whole spectrum of housing 
need, from homeless to ownership to disaster recovery, from urban to 
rural areas, and all low-income populations, including families with 
children, the elderly, veterans, and persons with special needs. HOME 
funding is necessary to help States and localities respond to urgent 
housing needs.
    HOME funds must be used to assist families with low incomes, those 
earning 80 percent of area median income (AMI) or less. State HFAs 
reported that more than half of their HOME-funded units in 2012 
assisted very low-income families, those earning 50 percent of AMI or 
less, and approximately one-quarter of the units assisted extremely 
low-income families, those earning 30 percent of AMI or less.
    HOME has an outstanding track record of success. States and 
localities have used HOME funding to produce more than 1.1 million 
affordable homes, in addition to making homes affordable for hundreds 
of thousands of families with direct rental assistance.
    Further, every Federal HOME dollar generates more than four dollars 
in additional public and private investment. HOME funds have leveraged 
more than $110 billion in additional funds for affordable housing. HOME 
funding is a vital piece in financing numerous affordable housing 
developments--many of which would not be able to move forward without 
its assistance. HOME complements and supports many critical Federal 
housing programs, such as the Low Income Housing Tax Credit, making 
developments financially feasible and achieving deeper income targeting 
than would otherwise be possible.
    NCSHA also supports the State-administered Housing Trust Fund and 
seeks a dedicated and sustainable funding source for it. However, the 
Housing Trust Fund is needed as a new resource for developing housing 
affordable to those with very low- and extremely low-incomes. It is not 
a replacement for appropriations to HOME and other HUD programs and 
should not be funded at their expense.
                           rental assistance
    We recommend Congress provide adequate funding for project-based 
Section 8 contracts and vouchers. These two programs serve some of our 
lowest income, most vulnerable people. We urge the Subcommittee to 
ensure the Section 8 accounts are funded such that all vouchers already 
in use are renewed and all contract renewals are funded for a full 12 
months in order to maintain owner confidence in the program.
    NCSHA recommends that Congress provide the funding necessary for 
HFAs and other public housing agencies (PHAs) to effectively administer 
project-based Section 8 assistance as Performance-Based Contract 
Administrators (PBCAs). We also support HUD's request for authority to 
use grants or cooperative agreements to support HFAs and PHAs serving 
as PBCAs.
    We also ask that you provide the funding necessary for PHAs to 
effectively administer the voucher program. PHAs have experienced year-
over-year proration of administrative fees, which has negatively 
impacted PHAs' ability to administer the voucher program. HFA project-
based contract and voucher administrators play critical roles in 
providing rental assistance and we ask that you ensure that they are 
adequately compensated for them.
    Thank you for funding new incremental VASH vouchers in fiscal year 
2014. However, additional new unrestricted incremental vouchers are 
needed so we can help some of the millions of families who qualify for 
rental assistance but do not receive it. According to HUD's most recent 
report on Worst Case Housing Needs, there was a 43.5 percent increase 
from 2007 to 2011 in households with worst case housing needs--defined 
as very low-income renters not receiving government housing assistance 
who either pay more than half of their monthly income for rent, live in 
severely inadequate conditions, or both.
    We urge you also to provide flexible rental assistance to State 
HFAs that they can use for either project-based or tenant-based rental 
assistance. Such funding would allow States to address their production 
and affordability needs most effectively and to serve more extremely 
low-income families by combining it with State-administered Housing 
Credit, Housing Bond, HOME, and other production resources.
    States consistently target their Housing Credit, Housing Bond, and 
HOME resources to households with incomes below the programs' statutory 
income limits. Yet, it is difficult--and sometimes impossible--to reach 
these households at a rent level they can afford without rental 
assistance.
      ginnie mae securitization of multifamily risk-sharing loans
    We request that you provide authority for Ginnie Mae to securitize 
FHA-HFA Multifamily Risk-Sharing loans. Providing this authority will 
allow HFAs to reduce the cost of financing rental housing developments, 
making it possible to achieve lower rents and reach even lower income 
tenants.
    Under the FHA-HFA Risk-Sharing program, HFAs meeting rigorous 
financial standards are able to underwrite FHA multifamily loans in 
return for sharing the risk of any losses on those loans. This program 
has been very successful, with 26 HFAs financing nearly 1,000 loans, 
totaling nearly $6 billion in principal and supporting more than 
110,000 affordable rental homes.
    If Ginnie Mae were to securitize FHA-HFA Risk-Sharing loans, HFAs 
predict the interest rate on the underlying mortgages could be reduced 
by as much as 200 basis points, or 2 percent. This rate reduction would 
lower rents and potentially reduce the need for and cost of other 
Federal housing subsidies. This authority would not increase government 
spending. In fact, it would generate revenue for the Federal Government 
according to the Congressional Budget Office (CBO), which estimates 
that allowing Ginnie Mae to securitize FHA-HFA Risk-Sharing loans would 
result in $20 million in mandatory savings over 10 years, or $2 million 
annually.
    We recognize the continued constrained fiscal environment in which 
you must craft your fiscal year 2015 appropriations legislation. We 
urge you to consider the proven effectiveness of HOME and Section 8 
rental assistance and the great unmet need for them, which has been 
further exacerbated in these difficult economic times, as you make your 
funding decisions. NCSHA appreciates this opportunity to offer a 
statement on behalf of these programs and we are ready to assist you in 
any way we can as you move forward with the fiscal year 2015 
appropriations process.
                                 ______
                                 
          Prepared Statement of the New Jersey State Assembly
    Thank you for the opportunity to submit outside testimony to the 
Senate Appropriations Subcommittee on Transportation, HUD and Related 
Agencies in regard to fiscal year 2015 Transportation Appropriations. 
My name is John Wisniewski. I am the Deputy Speaker of the New Jersey 
State Assembly, and I am Chair of the Council of State Governments, 
Eastern Regional Conference's Transportation Policy Committee (CSG-
ERC). It is in this capacity that I submit this testimony.
    CSG is a national organization of the States and U.S. Territories. 
The member States of the Eastern Region of CSG stretch from Maine to 
Maryland and include Puerto Rico and the U.S. Virgin Islands. ERC 
international associate members also include five Eastern Canadian 
Provinces. Our region is a critical economic engine for the Nation. 
Congress' difficult task of achieving long-term economic recovery 
requires funding programs with high rates of social and economic 
return. Further, I believe that adequate funding for our aging and 
over-burdened transportation infrastructure is an investment rather 
than an expense.
    As an organization comprised of State officials, we understand that 
budgets are constrained at all levels of government, and we most 
certainly recognize the incredible fiscal challenges faced by Congress. 
With this in mind, we would like to highlight some of the programs 
which we believe will enhance the transportation infrastructure in our 
region, and, ultimately, the Nation, and which we believe will promote 
a safe, secure, reliable, and environmentally sound transportation 
system, while improving our economy and creating sustainable jobs for 
the region and beyond. CSG-ERC supports the MAP-21 authorized levels of 
funding for both the Federal-aid highway program and the Federal 
transit program. Within these two programs, I would call your attention 
to the value of the following:
  --Utilizing a portion of the highway research funds for a series of 
        mileage-based user fee deployment tests. While we continue to 
        strongly support the use of the excise tax on motor fuels as 
        the principle means of transportation capital and operations, 
        we recognize the increasing limits on these funds. A highly 
        structured, carefully planned and conducted set of tests will 
        add to the understanding of the possibilities for this tool. 
        More specifically, a test of the multi-jurisdictional capacity 
        of the strategy would be most helpful; careful examination of 
        ``back office'' business practices would also add value to the 
        knowledge and understanding of the administrative and 
        organizational aspects of mileage based user fees.
  --Emphasizing in highway, bridge and transit programs, extreme 
        weather retrofitting of existing facilities. Recent extreme 
        weather events in the Northeast and around the Nation has 
        painfully demonstrated how fragile our infrastructure is and 
        how much we depend upon it. These concerns are equally critical 
        in Puerto Rico and the Virgin Islands.
  --Canada is our largest trading partner. The efficient flow of people 
        and goods across the border is vital to the social and economic 
        health of our region. Travel, trade, and tourism all rely on 
        improved infrastructure.
    Additionally:
    I believe that intercity passenger rail plays a critical role in 
the region's transportation network.
    The Northeast Corridor (NEC), serving as essentially an extra two 
lanes on I-95, is the main street of the region. Many segments of the 
NEC are already at capacity, especially during peak periods. 
Furthermore, NEC rail ridership is projected to increase by over 50 
percent by 2040. Penn Station in New York, for example, is the busiest 
station in the Amtrak system and is the best example of the challenges 
faced at various locations along the NEC. At rush hour, trains move 
through the underwater tunnels between New Jersey and Manhattan on 120 
second headways. This means that the slightest delay can trigger 
backups on the entire network. There is literally no spare 
infrastructure capacity, and the only way to acquire more is to add two 
more tracks to the NEC across the New Jersey Meadowlands and another 
set of tunnels under the Hudson River.
    To address this issue of capacity into New York, Amtrak created the 
``Gateway Project'' which is the single most important investment 
needed to unlock the capacity constraints on the NEC, and the many 
States it serves for the next generation. When implemented, the Gateway 
Project will bring additional capacity to the spot where it's needed 
the most--the bottleneck between Newark's and New York's Penn Station. 
This project is truly one of national significance and should be 
treated as such.
    Today, that segment of the NEC is a double track line that serves 
Manhattan through a pair of underwater tunnels built in 1910. These are 
among the same tunnels that filled with over 13 million gallons of salt 
water during Super Storm Sandy, shutting down service on the Northeast 
Corridor for nearly a week, and underscoring the importance of adding 
critical redundancy to this central chokepoint on the corridor. Adding 
two new tracks and tunnels from Newark to serve an expanded Penn 
Station, and the future Moynihan Station is essential to reliably 
support the roughly 450 trains that use the current tunnels today, and 
to permit future growth across the entire corridor.
    For the Gateway Project, I support Amtrak's funding request.
    Additionally, along the NEC, I would urge that such sums as may be 
necessary be provided to two other key infrastructure projects: (1) 
Baltimore Tunnel; (2) Susquehanna Bridges.
    In addition, I recommend that:
  --The Passenger Rail Improvement and Investment Act (PRIIA) of 2008 
        Sections 301, 302, and 501 be funded at $500 million. With no 
        earmarks, and an emphasis on ``readiness to proceed,'' the 
        money should be awarded competitively, and must be spent 
        promptly.
  --PRIIA Section 305 which called for the establishment of the Next 
        Generation Corridor Equipment Pool Committee (NGEC), ``...to 
        design, develop specifications for, and procure standardized 
        next-generation corridor equipment''. Since its inception in 
        January of 2010, the NGEC has developed five specifications for 
        next generation passenger rail equipment, and has initiated two 
        ground-breaking multi-State procurements. By providing publicly 
        available standardized specifications, the NGEC has created a 
        common platform from which multiple States can procure rail 
        equipment from American manufacturers. The standardized 
        specifications make it possible to buy equipment more quickly, 
        at a significantly lower cost, and with lower future costs 
        relating to maintenance, rebuilding, and the purchase of 
        additional equipment.
   NGEC-developed specifications, available to all competitors in the 
        rail equipment marketplace, will mean that equipment procured 
        will expand employment opportunities in the U.S. domestic 
        production, supply, and manufacturing industries.

   The Federal investment in the NGEC has leveraged significant in- 
        kind investments by the States in partnership with the private 
        sector. Therefore, we recommend that this highly successful 
        effort receive $1 million to continue to build on the 
        foundation it has established. The initial $4 million 
        investment in the NGEC created an estimated 36 percent savings 
        (nearly $200 million) in the historic multi-State bi-level 
        passenger rail car procurement.
  --Rail Line Relocation has assisted rural communities in meeting 
        safety and operational challenges. I recommend that this 
        program receive $25 million.
  --The implementation of positive train control (PTC) is a daunting 
        task for all concerned. I strongly endorse the safety and 
        planning recommendations found in the President's fiscal year 
        2015 budget proposals. Recent tragic events clearly demonstrate 
        the need for enhanced investments in developing a renewed rail 
        safety culture. As part of this effort, I would recommend the 
        President's proposed $425 million funding level for the 
        Positive Train Control (PTC) program.
  --I thank the Committee for repurposing funds for planning in the 
        fiscal year 2014 Omnibus Bill and ask that language again be 
        included for a $225 million overall investment in a high-
        performance, State-supported intercity passenger rail program 
        with 10 percent directed for planning purposes.
   I also believe that a portion of rail research should be directed 
        toward projects that assist the intercity passenger rail system 
        in dealing with severe weather.
    Again, I am very much aware of Congress' larger responsibility to 
balance long-term infrastructure investment with scarce financial 
resources. However, I believe it is vital that we do not under invest 
in the Nation's transportation system; doing so will seriously limit 
the Nation's ability to compete in the global marketplace, while also 
having a negative impact on safety, security and mobility.
    Thank you for this opportunity to provide you with our comments, 
and for your continued support.

    [This statement was submitted by Assemblyman John Wisniewski, 
Deputy Speaker, New Jersey State Assembly, and Chair, Council of State 
Governments/Eastern Regional Conference.]
                                 ______
                                 
       Prepared Statement of the New York City Housing Authority
    Chairwoman Patty Murray, Ranking Member Susan M.Collins and Members 
of the Subcommittee, the New York City Housing Authority (NYCHA) is the 
largest public housing authority in North America, committed to 
fulfilling our mandate under the Housing Act of 1937 and other Federal 
statutes, by providing safe, decent, affordable housing to the over 
630,000 low- and moderate-income residents currently served by our 
programs. NYCHA's public housing program encompasses over 178,000 
apartments in 334 developments located throughout New York City. With 
more than 31,430 private building owners participating in our Section 8 
Housing Choice Voucher program, the Authority also provides housing for 
an additional 225,000 New York City residents.
    Unfortunately, the need for affordable housing far outweighs the 
resources that NYCHA has for its provision. As of this writing, 161,000 
families are currently on our public housing waiting list. Another 
126,000 families are on the waiting list for Section 8 vouchers, which 
has been closed since 2007, with the exception of assisting homeless 
veterans under the VASH program.
    NYCHA relies on tenant rents and Federal funding in order to offer 
housing assistance to its residents, who are comprised of working 
families, the elderly and disabled, youth, as well as veterans. Federal 
funding, from four distinct programs, is essential to meeting our 
obligations to these residents. In fiscal year 2014, Federal subsidies 
from the Public Housing Operating Subsidy, the Public Housing Capital 
Fund, funding for Section 8 Housing Choice Voucher renewals and the 
Section 8 Administrative fee accounted for fully 60 percent of the 
Authority's total revenues. However, the Federal commitment to these 
programs has declined precipitously over the past decade, with 
appropriations falling short of full funding and allocations routinely 
prorated by HUD. Thus NYCHA, like public housing authorities across the 
country, are receiving less each year than the amount the formulas 
would otherwise provide.
    For example, in 2013, NYCHA received just 82 percent of what it was 
due under the Operating Subsidy formula to cover all expenses 
associated with the day-to-day management, maintenance, upkeep and 
staffing of its operations. This situation is unsupportable, as it 
results in large structural deficits where NYCHA is sorely challenged 
to maintain programs for families currently receiving housing 
assistance. In fiscal year 2013 the Authority's negative balance was 
$180 million.
    While NYCHA appreciates that enactment of the fiscal year 2014 
Omnibus Consolidated Appropriations Act staved off worst case impacts--
such as the termination of thousands of Section 8 vouchers forecasted 
to result from a second year of sequester, the Authority is testifying 
today to the urgent need for higher funding levels if the Federal 
Government's historic investment in the public housing asset is to be 
preserved. In creating the public housing system in New York, and 
across the Nation, Congress laid down a marker establishing the moral 
and economic importance of providing affordable housing for working 
families, as well as for the elderly and the disabled. Working families 
constitute 47.5 percent of NYCHA's households. Nearly 37 percent of the 
families are headed by persons over 62 years of age. Given New York's 
expensive housing market, the existence of a portfolio of affordable 
rental units is essential to the continued provision of housing for our 
workforce--our teachers, nurses, firemen, custodians, etc.--these 
buildings are as significant an asset to the city's infrastructure as 
are our bridges, airports and hospitals.
                     public housing operating fund
    Despite this very difficult funding environment, NYCHA nonetheless 
over the past 18 months initiated management reforms to improve the 
quality of life of its residents. In 2012, our maintenance and repair 
backlog for example, averaged 423,000 open requests for work per day. 
By focusing on the redirection of scarce resources to frontline needs 
(carpenters, plumbers, on-site property management staff, etc.), this 
maintenance and repair metric has been reduced by 79 percent, to an 
average of only 88,000 open work orders per day, of which we are now 
averaging the completion of work orders within five-days system-wide. 
Although we are proud of this and many other programmatic initiatives, 
no management reform can make up for decreased levels of Federal 
funding over many years. NYCHA urges the Subcommittee to increase 
fiscal year 2015 funding for the public housing operating subsidy to 
$5.2 billion.
                      public housing capital fund
    NYCHA is further strained by its rapidly aging stock. New York 
City's is the Nation's oldest public housing authority, currently 
celebrating its 80th year. Eleanor Roosevelt and Mayor Fiorello H. 
LaGuardia laid the cornerstone of First Houses, on New York's Lower 
East Side in 1934. We are proud to report that First Houses continues 
to be a vibrant community housing 126 families today. Many of our 2,600 
residential buildings are over 60-70 years old and like all structures, 
they must be maintained, or they deteriorate. Failure to maintain these 
properties in a state of good repair means the depreciation of the 
Federal Government's enormous investment in affordable housing for its 
low- and moderate-income families. Unfortunately, NYCHA has seen a 28.5 
percent decrease in our annual capital grant, from $420 million in 
fiscal year 2001 to $300 million for fiscal year 2014. Chronic 
underfunding of the capital program necessitates deferring capital 
projects on critical building systems (heating, roofing, brickwork, 
etc.) which only leads to a cycle of deterioration and higher costs in 
the on-going challenge to keep these buildings viable, let alone in a 
state of good repair.
    A study by Parsons Brinkerhoff, a leading architectural and 
engineering firm, assessed and prioritized the immediate and life cycle 
capital needs of each NYCHA development and their major building 
systems. Based on that study, it is estimated that $6 billion over the 
Authority's 5-year Capital Plan expenditures, is necessary to bring the 
properties to a state of good repair. The need is projected to increase 
to $25 billion by 2020, if not fully addressed. If the public housing 
asset in New York City and elsewhere is to survive, it requires a 
Federal commitment that is renewed with a long-term program of 
investment to address capital needs. NYCHA strongly urges the 
Appropriations Subcommittee to increase the Public Housing Capital Fund 
spending level to $5.06 billion for fiscal year 2015.
               section 8 housing choice voucher renewals
    Although Congress has supported the Section 8 platform as a means 
for providing low- and moderate-income families with housing 
assistance, the program's design means that even modest proration 
levels can threaten termination of voucher assistance and increased 
homelessness. Where NYCHA receives less than 100 percent of its 
eligibility for housing assistance payments, a corresponding number of 
vouchers must be shelved.
    Additionally, the program's budget-based framework--current year's 
funding predicated on the prior year's spending--exacerbates NYCHA's 
inability to fund new vouchers. In fiscal year 2013, spending levels 
were flat-lined by the year-long Continuing Resolution and further 
reduced by the Sequester. Housing Choice Voucher renewals were prorated 
at 94 percent, causing NYCHA's program to have an approximate $80 
million shortfall. Only the depletion of NYCHA's program reserves (from 
$58 million to zero) and the infusion of $21 million in HUD shortfall 
funding, allowed the Authority to avoid terminating an estimated 9,000 
vouchers for families receiving assistance.
    Last year, endeavoring to keep its Section 8 program solvent, NYCHA 
implemented a number of cost saving measures, including the funding 
only 90,500 of the 99,037 vouchers it is authorized to issue. Despite 
these efforts, prorated levels of Federal funding in 2012-2013 resulted 
in the loss of an estimated 2,000 vouchers from the program.
    In order to break this downward spiral in which the Section 8 
housing supply is reduced while the need for housing assistance 
increases, NYCHA urges the Subcommittee to build on progress made by 
the 99 percent proration level in the fiscal year 2014 Consolidated 
Appropriations Act and in the increases called for in the President's 
Budget, by funding voucher renewals at $18.370 billion for fiscal year 
2015.
                      section 8 administrative fee
    The Housing Authority calls on the Subcommittee to fund the long-
neglected Section 8 Administrative Fee at a level commensurate with 
Congress's support for Section 8 voucher renewals. The integrity of 
NYCHA's voucher program rests on the Authority's ability to administer 
each of the 90,500 vouchers we have issued, to certify that only 
income-eligible families are receiving the benefit of this assistance 
and to ensure that participating building owners are meeting housing 
quality standards required by Federal guidelines. These essential 
reviews cannot be accomplished without adequate resources. While the 
Authority thanks Congress for raising the Administrative Fee spending 
levels in the fiscal year 2014 Appropriations Act from 69 percent 
proration in 2013 to 75 percent this year, the subsidy needed to 
administer the program remains insufficient. Therefore, NYCHA urges the 
Subcommittee to fund the Section 8 Administrative Fee at $2.08 billion 
for fiscal year 2015.
                         administrative reforms
    From the time of New York's founding to the present, the city's 
real estate and rental housing markets have never remained static. 
Despite being the city's largest landlord, the means at NYCHA's 
disposal to adapt to this ever-changing environment are limited.
    Administratively burdensome HUD policies hinder the Authority's 
ability to maximize effective use of revenue as does the failure of 
successive Congresses to modernize the public housing and Section 8 
programs. Many reforms included in housing assistance legislative 
overhauls like SEVRA, SESA and AHSSIA would offer the Authority a 
greater degree of flexibility, which, while not a substitute for 
increased funding, would allow NYCHA to apply scare resources more 
effectively. The Authority applauds the Appropriation Committees for 
their willingness to include administrative reforms such as bi-annual 
Section 8 housing quality inspections in the fiscal year 2014 Omnibus. 
We urge the Subcommittee to take that same approach again when 
considering the fiscal year 2015 HUD Appropriation.
    NYCHA urges the House THUD Subcommittee to include a provision 
lifting the current 60,000 unit cap on Rental Assistance Demonstration 
(RAD) conversions from a public housing platform to a form of Section 8 
project-based assistance. The Authority has a pending RAD proposal for 
the conversion of Bayside Houses in the Rockaway Beach section of 
Queens. We hope to continue exploring RAD's applicability to the New 
York housing market, and its utility as a tool for leveraging the 
financial resources needed to meet the capital needs of NYCHA 
developments.
    Additionally, NYCHA urges the Subcommittee to include legislation 
allowing income self --certification by public housing residents and 
Section 8 tenants with assets below a pre-set level, as well as 
streamlined and less frequent income certifications for fixed-income 
households.
    Finally, the Authority calls on the Subcommittee to make advisory, 
certain categories of the HUD Real Estate Assessment Center (REAC) 
scoring. NYCHA's REAC scores, the HUD-mandated physical assessments of 
NYCHA developments, have improved markedly over past evaluations. The 
Authority, however, remains focused on addressing items that can 
improve our residents' quality of life. As such, NYCHA supports 
inclusion in the THUD Appropriation of a provision allowing PHAS and 
SEMAP scoring criteria that are not linked to quality of life, to be 
advisory, so as to allow limited resources to be spent in a manner most 
beneficial to our residents.
                               conclusion
    The founders of public housing in New York City had the wisdom and 
foresight to demand that low- and moderate-income families be afforded 
housing alternatives to the dangerous and non-hygienic housing 
conditions of that era. In partnership with the Federal Government, a 
public housing system was created in New York and nationwide to address 
the need, then as now, for safe, decent and affordable housing. Then, 
as now, this housing provided the City's workforce with a place to 
raise families and to make essential contributions to the economic 
productivity and growth of New York City.
    When we call public housing an asset, we are speaking literally. 
Today, for every dollar in Federal subsidy that NYCHA receives, a 
dollar and seventy cents of economic output is derived. We urge the 
THUD Appropriations Subcommittee to expand on the work it accomplished 
in the Consolidated Appropriations Act earlier this year, by supporting 
the most robust funding levels possible for public housing and Section 
8 programs and by including provisions allowing the administrative 
flexibility required to preserve the public housing asset, and the 
Federal Government's historic investment in it, here in New York City.

    [This statement was submitted by Shola Olatoye, Chair and Chief 
Executive Officer, New York City Housing Authority.]
                                 ______
                                 
             Prepared Statement of the Squaxin Island Tribe
    On behalf of the Squaxin Island Tribe, thank you for accepting this 
testimony request for funding to complete a Tribal roads project that 
began in 2005. Transportation infrastructure development is critical in 
Tribal communities; the most vulnerable by unsafe and often 
inaccessible roads. Passage of the Safe, Accountable, Flexible and 
Efficient Transportation Equity Act (SAFETEA-LU) and the Moving Ahead 
for Progress in the 21st Century Act (MAP-21) have improved 
transportation on Tribal lands but some much needed projects have 
fallen through the cracks. Such is the case with the Simmons Road 
Project for the Squaxin Island Tribe. This project needs to be 
completed for the health and safety of our Tribal citizens, as well as 
the residents of Mason County and the travelling public. We ask that 
you give this request consideration and assist us in making these roads 
less dangerous and life threatening.

             PROJECT DESCRIPTION AND APPROPRIATIONS REQUEST
 
 
------------------------------------------------------------------------
Engineering.......................        $729,000          Mason County
Construction......................       4,671,000    Unfunded Shortfall
    Total Project Cost............      $5,400,000
------------------------------------------------------------------------


    The Washington State Department of Transportation (WSDOT) lists US 
101 as a ``Highway of Statewide Significance'' because it is the 
primary link between I-5 and the Olympia Peninsula, including Mason 
County. It routinely serves commuters, commercial and freight vehicles, 
public transit and school buses, and tourists bound for the Peninsula's 
myriad of attractions. According to WSDOT, traffic volumes at the US 
101/SR 108 interchange averaged 23,000-25,000 per day between 2009 and 
2012.
    Most access points for connecting county roads to US 101 in Mason 
County are at-grade crossings. One of these is the intersection at US 
101 about a mile north of Kamilche, and Lynch Road, at Taylor Towne, a 
small commercial development that is home to Taylor Shellfish. This 
intersection is heavily used by Tribal members and employees, as well 
as the general public and commercial shellfish growers like Taylor 
Shellfish and the Tribe's Salish Seafoods.
    A fatal accident occurred at the at-grade US 101/Lynch Road 
crossing in 2000, which prompted WSDOT's Olympic Region Planning Office 
to join forces with Mason County to fund a study of the intersection to 
improve public safety. The purpose of the study was to examine existing 
problems and identify potential solutions. The preferred alternative 
was identified in 2001: construction of a new county road parallel to 
US 101 from Lynch Road to another county road, Old Olympic Highway, 
near the US 101/SR 108 Interchange and several parcels of Tribal trust 
land. This option partially follows Simmons Road, an existing county 
road, and is referred to as the Simmons Road Project for that reason.
    In 2005 the State Legislature approved $1 million for project 
planning under the Transportation Partnership Act, naming Mason County 
as the project lead because the solution involves a county road. Mason 
County subsequently entered into an agreement with the Washington State 
Department of Transportation to facilitate the design and construction 
of the proposed connector road. Preliminary design was started in 2006 
and completed to the 30 percent stage by the summer of 2007. In August 
2007, WSDOT, in conjunction with Mason County, completed a Value 
Engineering Study and validated the cost estimate of approximately $6 
million.
    Unforeseen costs since 2007 associated with environmental 
mitigation, right-of-way acquisition, and materials have caused an 
estimated $5.4 million funding shortfall for completion of the project. 
Mason County is working with the Tribe and WSDOT and is moving forward 
with the design, permitting, and right-of-way acquisition using 
available funding. Together we are actively seeking Federal and State 
support for the balance of funds needed to complete this project.
     the partnership--squaxin island tribe, mason county and wsdot
    The Squaxin Island Tribe is a federally-recognized Indian Tribe 
with headquarters located within the boundaries of Mason County, 
Washington at Kamilche, near the intersection of US 101 and SR 108. 
Mason County, with a population of 60,699 (2010 Census), encompasses 
about 960 square miles of diverse terrain at the base of the Olympic 
Peninsula and southwestern shorelines of Puget Sound. Primarily rural 
in nature, the County is home to the southern boundaries of the Olympic 
Mountains, two major rivers and their tributaries, and almost 100 fresh 
water lakes. The City of Shelton (pop. 9,855) is the only incorporated 
city within Mason County. The Squaxin Island Tribe and its enterprises 
top the list of major employers in the county, followed by forest 
products, government and healthcare.
    The Squaxin Island Tribe is creating a thriving economic and 
residential community on Tribal trust land at Kamilche. Only a few 
years ago the area was primarily small farms and timberland. It had 
poor quality county roads and lacked essential infrastructure. With a 
growing community and increasing numbers of government and enterprise 
employees, the Tribe, out of necessity, has created its own 
transportation and infrastructure systems. In doing so it has improved 
local roads, and worked with the State and county to enhance safety and 
access in the greater South Mason County area.
    The Tribe has a successful history of interagency collaboration and 
partnered with Mason County in 2007 to replace a functionally obsolete 
bridge with a much safer one, successfully leveraging Tribal 
transportation funds to address regional safety concerns. The Tribe 
intends to seek and leverage funds in a similar way with the US 101/
Simmons Road Project.
    In the years between the initial traffic study of the US 101/Lynch 
Road crossing, the Squaxin Island community and surrounding areas have 
experienced significant growth in population, commercial enterprises 
and traffic. In the wake of this growth, the Tribe, its employees, 
community residents and travelers throughout the area are particularly 
affected by the unsafe crossing. Lynch Road and US 101 is the 
intersection of two critical routes that link Tribal members to 
employment, services, water access to treaty fishing and shellfish 
gathering areas and to the Tribe's reservation, Squaxin Island.
    Despite safety measures such as signage, speed reduction, increased 
awareness and monitoring, accidents continue to occur at the 101/Lynch 
Road intersection because it is not engineered to safely accommodate 
the turning patterns of traffic entering and exiting US 101. The Tribe 
is seriously concerned about the safety of its Tribal members, 
community members and neighbors who live near and frequent this 
intersection daily.
    Your consideration and assistance is much appreciated to help fund 
the balance of this top priority safety improvement project. With your 
support, the Simmons Road Project will provide the traveling public 
with much needed safety improvements along the SR 101 corridor and a 
new access road between Lynch Road and Old Olympic Highway to the 
existing Kamilche interchange users.
    Thank you.

    [This statement was submitted by Dave Lopeman, Chairman, Squaxin 
Island Tribe.]
                                 ______
                                 
  Prepared Statement of the States for Passenger Rail Coalition, Inc.
    It is my pleasure to submit outside witness testimony on behalf of 
the 22 members of the States for Passenger Rail Coalition, Inc. 
(S4PRC). Approximately half of all intercity rail passengers traveling 
on Amtrak do so on State-supported routes. Further, States are vital 
investors in the operation, maintenance and development of the 
Northeast Corridor (NEC). In this difficult economic climate, we 
recognize that the members of the Subcommittee have been challenged to 
make very difficult choices, and we appreciate your willingness to 
consider our recommendations. With this in mind, we offer the 
following:
    We strongly endorse the safety and planning recommendations found 
in the President's fiscal year 2015 budget proposals. Recent tragic 
events clearly demonstrate the need for enhanced investments in 
developing a renewed rail safety culture. As part of this effort, we 
recommend the President's proposed $425 million funding level for the 
Positive Train Control (PTC) program. States have been pro-active in 
this vital area; and the funds are necessary to accelerate this 
critical effort. As an example, in Missouri and Illinois there is an 
estimated $60 million dollar implementation cost in the Nation's second 
and third largest rail hubs, Kansas City and St. Louis Terminals 
respectively. These Class III railroads are required to implement PTC 
if they have passenger rail movements. These two systems would have a 
total of approximately $5 to $10 million in annual maintenance costs. 
The current passenger rail service in Missouri costs an estimated $9.6 
million annually, for scale.
    The TIGER program has been a benefit to the Nation's overall 
transportation system; we greatly appreciate the investments in rail, 
in general, and especially in intercity passenger related projects. We 
encourage you to fund TIGER at $600 million as was provided in the 
fiscal year 2014 Appropriations Act.
    We thank the Committee for repurposing funds for planning in the 
fiscal year 2014 Omnibus and ask that language again be included for a 
$225 million overall investment in a high-performance, State-supported 
intercity passenger rail program with 10 percent directed for planning 
purposes. This would be a great help to individual States, and multi-
State corridors that continue to assiduously prepare and update service 
development plans for reliable intercity passenger rail services.
    The Passenger Rail Improvement and Investment Act (PRIIA) of 2008 
has had a powerful impact on States as we make every effort to support 
safe and efficient service. Specifically, Section 305, which called for 
the establishment of the Next Generation Corridor Equipment Pool 
Committee (NGEC), `` . . . to design, develop specifications for, and 
procure standardized next-generation corridor equipment.'' Since its 
inception in January of 2010, the NGEC has developed five 
specifications for next generation passenger rail equipment, and has 
initiated two ground-breaking multi-State procurements. By providing 
publicly available standardized specifications, the NGEC has created a 
common platform from which multiple States can procure rail equipment 
from American manufacturers. The standardized specifications make it 
possible to buy equipment more quickly, at a significantly lower cost, 
and with lower future costs relating to maintenance, rebuilding, and 
the purchase of additional equipment.
    NGEC-developed specifications, available to all competitors in the 
rail equipment marketplace, will mean that equipment procured will 
expand employment opportunities in the U.S. domestic production, 
supply, and manufacturing industries.
    The Federal investment in the NGEC has leveraged significant in-
kind investments by the States in partnership with the private sector. 
Therefore, we recommend that this highly successful effort receive $1 
million to continue to build on the foundation it has established. The 
initial $4 million investment in the NGEC created an estimated 36 
percent savings (nearly $200 million) in the historic multi-State bi-
level passenger rail car procurement.
    PRIIA Sections 209 and 212 both directed the States to work with 
Amtrak to achieve new cost allocation regimes. Progress continues on 
these complex efforts. The challenges are especially daunting for 
States at the geographic ends of multi-State corridors. We urge 
Congress to continue to support the orderly progression toward 
achieving these requirements.
    Finally, the Rail Line Relocation Program, though modest in size, 
has assisted rural communities in meeting safety and operational 
challenges. We recommend an investment of $25 million in fiscal year 
2015.
    Thank you for this opportunity to submit this testimony, and for 
your continued support.

    [This statement was submitted by Patricia Quinn, Chair, States for 
Passenger Rail Coalition, Inc., Executive Director, Northern New 
England Passenger Rail Authority.]
</pre></body></html>
